<html>
<title> - THE SITUATION ON THE KOREAN PENINSULA AND UNITED STATES STRATEGY IN THE INDO-PACIFIC REGION</title>
<body><pre>[Senate Hearing 115-800]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-800

                 THE SITUATION ON THE KOREAN PENINSULA
                   AND UNITED STATES STRATEGY IN THE
                          INDO	PACIFIC REGION

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available via http://www.govinfo.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-403 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON ARMED SERVICES
                      
  JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
TIM SCOTT, South Carolina               GARY C. PETERS, Michigan                                                                             
                      
                    
                     
               Christian D. Brose, Staff Director
            Elizabeth L. King, Minority Staff Director

                                  (ii)

  
                              C O N T E N T S

_________________________________________________________________

                            January 30, 2018

                                                                   Page

The Situation on the Korean Peninsula and United States Strategy      1
  in the Indo-Pacific Region.

Blair, Admiral Dennis C., U.S. Navy (Ret.), Chairman and              3
  Distinguished Fellow, Sasakawa Peace Foundation.
Green, Michael J., Ph.D., Senior Vice President for Asia and          8
  Japan Chair, Center for Strategic and International Studies.
Magsamen, Kelly E., Vice President, National Security and            11
  International Policy, Center for American Progress.

                                 (iii)


 
                 THE SITUATION ON THE KOREAN PENINSULA
                   AND UNITED STATES STRATEGY IN THE
                          INDO-PACIFIC REGION

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room SH-216, Hart Senate Office Building, Senator James Inhofe 
presiding.
    Members present: Senators Inhofe, Fischer, Cotton, Rounds, 
Ernst, Tillis, Sullivan, Perdue, Cruz, Scott, Reed, Nelson, 
McCaskill, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, Heinrich, Warren, and Peters.

           OPENING STATEMENT OF SENATOR JAMES INHOFE

    Senator Inhofe. Our meeting will come to order.
    We are discussing something up here informally, a problem. 
It is not your fault. You have nothing to do with it, but you 
are the victim of it. It happens that we have four committee 
hearings at the same time this morning that happen to be very 
significant ones, so we will have a lot of movement in and out, 
and I apologize for that.
    Our Armed Service Committee meets this morning to receive 
testimony on the situation on the Korean Peninsula and the 
United States strategy in the Indo-Pacific region.
    I would like to welcome our distinguished panel of 
witnesses this morning: Admiral Dennis Blair, former Commander 
of the U.S. Pacific Command and Director of National 
Intelligence; Dr. Michael Green, senior vice president for Asia 
and Japan chair at the Center for Strategic and International 
Studies; and Ms. Kelly Magsamen--does that sound good?--the 
vice president of national security and international policy at 
the Center for American Progress.
    Last week, we had the honor of having Secretaries Kissinger 
and Shultz here to discuss global challenges, and they both 
agreed that North Korea is our most imminent--they always use 
``imminent threat.'' Every witness that we have had so far has 
talked about that. The others can be different threats, China 
or problems with Russia. But when they talk about imminent 
threat, that is what they talk about.
    General John Hyten, U.S. Strategic Command Commander, said 
last September that he views North Korea's ability to deliver a 
nuclear weapon on an ICBM [Intercontinental Ballistic Missile] 
as a matter of when, not if.
    Of course, I think November 28th changed all that. We know 
that range is something that is there. They can argue and say, 
``Well, could they actually have carried a payload for that 
kind of a range?'' That doesn't give me a lot of comfort. The 
problem is still there, and it is potentially a very dangerous 
position.
    Unfortunately, the technology is in the hands of an erratic 
despot with clear disregard for U.N. Security Council 
resolutions. In view of this stark reality, this committee must 
confront difficult questions about the United States policy and 
strategy for achieving our stated objectives of defending our 
homeland, protecting our allies, and denuclearizing the Korean 
Peninsula.
    We look forward to our witnesses' assessments of the 
current state of play on the Peninsula and United States 
offensive and defensive measures, including missile defense 
programs.
    In particular, we look forward to our witnesses' 
recommendations for how the United States can pursue an 
effective, long-term deterrence strategy for North Korea.
    These are very difficult questions, and we have excellent 
opinions that we will be hearing from you. We thank you very 
much.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and let me 
join you in welcoming the witnesses.
    Thank you for your work and for your presence here today. I 
believe everyone here today is very concerned about both the 
rate of advancement of North Korea's nuclear and missile 
programs and the lack of progress on the diplomatic front.
    Last October, I visited South Korea and the DMZ 
[Demilitarized Zone], and when I returned, I gave a speech 
regarding my concerns about the national security challenges 
posed by North Korea and the importance of diplomacy. I laid 
out specific areas that I believe this administration needed to 
work on to address this crisis. I am still quite concerned that 
we have made little or no progress in these areas and that we 
are not doing everything we need to set the right conditions 
for diplomacy with North Korea.
    Our State Department is lacking critical personnel, and we 
still do not have an Ambassador to South Korea. The mixed 
messaging coming from the administration is undermining what 
should be one consistent message to North Korea, that the 
United States will continue to exert maximum pressure 
diplomatically and economically until North Korea comes to the 
table and agrees to a negotiated solution, and that the United 
States will only use military force as a last resort. Finally, 
our coordination with our allies and partners lacks the 
robustness and unity that I would have hoped for, given the 
importance of this crisis.
    I am also concerned that there is a lot of cavalier talk 
about war and limited strikes with North Korea. There is 
widespread agreement that a war with North Korea is not in our 
long-term interests. A war with North Korea will result in a 
tremendous loss of life, the likes of which we have not seen 
since World War II, and subsequent stabilization efforts will 
take years, possibly decades. It will cost the United States 
taxpayers billions of dollars, much more than either Iraq or 
Afghanistan. It will monopolize our military, diplomatic, and 
financial resources, and leave us with limited options to 
position ourselves globally and take on other adversaries, 
including the long-term threats from Russia and China, or 
address other crises. We will be in a worse position than we 
are right now.
    We have never been very successful at divining the long-
term strategic impacts of going to war. There are a multitude 
of unintended consequences to every war, and this one would be 
no different. I think we owe it to the citizens of this country 
and our allies and partners to take a long, hard look at the 
cost and risks associated with a war with North Korea.
    I hope our witnesses today can provide us with their expert 
views on the possible long-term strategic impacts of that 
potential conflict.
    Finally, I look forward to hearing how we should be 
positioning ourselves, both diplomatically and militarily, to 
engage in a long-term containment and deterrence campaign with 
North Korea, if diplomacy fails.
    Thank you, and I look forward to hearing your testimony on 
these important issues.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Reed.
    Admiral Blair, we have introduced all three of you. It is 
nice to be back with you. We look forward to your testimony. 
Let's try to get it as close to 5 minutes as possible, but your 
entire statement will be made a part of the record.
    Admiral Blair?

    STATEMENT OF ADMIRAL DENNIS C. BLAIR, U.S. NAVY (RET.), 
  CHAIRMAN AND DISTINGUISHED FELLOW, SASAKAWA PEACE FOUNDATION

    Admiral Blair. Yes, sir. Chairman Inhofe, Ranking Member 
Reed, members of the committee, thank you very much for 
continuing this important discussion in open session. The 
American people need to know: What are the stakes, what are the 
risks, in dealing with the challenge of North Korea?
    I would like to correct several widely held misconceptions 
about North Korea.
    Misconception one: Nuclear deterrence does not work for 
North Korea. In fact, American nuclear deterrence has been 
effective since North Korea became a nuclear power in 1991, 
1992. None of the three generations of Kim dictators has used 
nuclear weapons during those 26 years for fear of American 
retaliation.
    North Korea's ICBM delivery capability, which can never be 
fully tested because of geographical limitations and a larger 
number or weapons are still dwarfed by the American arsenal. 
That situation will not change this fear and the effectiveness 
of deterrence.
    Misconception two: Sanctions have not worked against North 
Korea. In fact, serious and strict sanctions have never been 
tried against North Korea. The formal sanctions by the U.N. 
have been less strict than those against either Syria or Iran, 
and even those have been inadequately enforced. With a 
sustained and comprehensive intelligence and diplomatic effort, 
real pain can be inflicted on North Korea. In the past, when it 
has suffered real economic pain, it has loosened its repressive 
grip.
    Misconception three: North Korea will never give up its 
nuclear weapons. It is true that you only get what you inspect 
with agreements with North Korea. However, that country has 
been willing to slow and sell parts of its program over the 
years in return for political and economic concessions.
    The United States and the international community should 
never accept North Korea as a nuclear state. We should retain 
our ultimate goal of verifiable, irreversible, complete 
disarmament. But we can learn something, we may gain something, 
by patient, well-prepared, highly skeptical talks with the 
North Koreans about their programs.
    Misconception four: Time is on North Korea's side. Look at 
that iconic satellite picture of the Korean Peninsula by night, 
with a black void north of the DMZ, bright lights to the south. 
Tell me, which country is a success? Which country is on the 
ropes?
    Misconception five: American policy toward North Korea has 
failed. Look at that satellite picture again. Which of those 
two countries is an ally of the United States? Yes, the dark 
country to the north has nuclear weapons, but its quest to 
develop them has played a role in impoverishing and isolating 
it. The bright country to the south could have developed 
nuclear weapons, but with our active encouragement, it has 
chosen to rely on the American nuclear guarantee. That 
guarantee, as I pointed out, has been effective for over a 
quarter of a century.
    Misconception six: The United States has no policy choices 
but to attack North Korea. In fact, we have many means to deal 
with North Korea. We can continue to deter the use of North 
Korea's nuclear weapons in the future as we have in the past, 
despite their development of an inadequately tested ICBM and a 
growing but very limited stockpile of nuclear material. We can 
bring stronger sanctions against North Korea than in the past, 
especially against the members of the Kim dynasty and those 
officials that support it through criminal activities around 
the world. We can refine and exercise and resource the 
contingency plans for a conflict in Korea, so that victory will 
be as quick as possible and so that North Korea has no doubt of 
the result. As it has in the past, a robust contingency plan 
for major conflict puts an upper limit on North Korean 
provocations, and they are very aware of it, and they try to 
stay below it.
    We can and we should respond to North Korean provocations, 
however, from special forces attacks, to missile attacks, to 
reckless nuclear tests, with powerful military strikes of our 
own, in conjunction with the Republic of Korea. We can do so 
with little risk of North Korean escalation.
    Note that I said, ``respond.'' It matters how an exchange 
like this begins. Preemption leads to unknown territory. The 
results have been unpredictable, often adverse, and both 
international and domestic support have been thin. Retaliation, 
however, is much more certain in its effects. It runs far less 
risk of escalation. It is widely supported at home and abroad.
    Finally, we can pursue vigorous programs to open up North 
Korea with information. The objective is for its people, and 
especially those powerful organizations that now support the 
Kim dynasty--the army, the police, the intelligence services, 
the media, the propaganda organization--to open those 
organizations up to realize that they can do much better 
without the Kims.
    I am mystified, frankly, by the gloom and doom that I hear 
about American policy toward North Korea. We have successfully 
handled this threat in the past, and we can do so in the 
future.
    Thank you. I look forward to your questions.
    [The prepared statement of Admiral Blair follows:]

                 Prepared Statement by Dennis C. Blair

    There are at least five common misconceptions about North 
Korea that are making it difficult for policy makers to come up 
with an effective set of actions to deal with that country. 
This statement discusses those misconceptions and then makes 
recommendations for a sustained policy to support American 
interests and those of our allies.
    1. Misconception One: Nuclear deterrence does not work in 
the case of North Korea.
    In fact, American nuclear deterrence has been effective 
against all three generations of the Kim dynasty.
    North Korea first gained access to nuclear technology and 
materials in 1962 when it established, with Soviet assistance, 
the Yongbyon Nuclear Scientific Research Center. In 1993, when 
Kim il Sung was still dictator, the IAEA conducted a series of 
inspections of Yongbyon, and announced that North Korea had 
diverted plutonium from the reprocessing plant there for 
nuclear weapons. In 2002, now with Kim Jong-il in charge, North 
Korea admitted publicly that it had a clandestine nuclear 
weapons program, and conducted two nuclear weapons tests. Now 
the third Kim dictator, Kim Jong-un, has openly claimed that 
his country has nuclear weapons, and tested them four times.
    In other words, North Korea has had nuclear weapons for 
about 25 years. Yet it has not used them. It is not because of 
a lack of delivery systems. Crude large nuclear weapons that 
are well within North Korea's technical capacity could have 
been, and still can be, delivered against South Korea, Japan, 
and even the United States, by submarine, disguised fishing 
boat, or bomber aircraft.
    North Korea has not used nuclear weapons for the same 
reason no other country has used them against another nuclear 
power or its allies--fear of retaliation. The Kim regime wants 
above all to maintain its ruling position and survive. Using a 
nuclear weapon against the United States or its allies means 
certain destruction of North Korea, the end of the regime, and 
death of the current Kim despot and his family.
    Intercontinental ballistic missiles are simply another 
delivery system for North Korean nuclear weapons. Because of 
the limitations of North Korean testing, their nuclear missile 
force will always be of unknown reliability. North Korean ICBMs 
will be weapons for bargaining and blustering, not for 
delivering against a country with thousands of highly reliable, 
thoroughly tested nuclear systems.
    2. Misconception Two: Sanctions have not worked against 
North Korea
    In fact, strict sanctions have never been attempted against 
North Korea.
    As Nicholas Eberstadt reminded us recently in an article in 
Commentary Magazine, the international sanctions against North 
Korea have been only moderately punitive, and have been weakly 
enforced.
    We know that reduction in outside support can destroy the 
North Korean economy. This is what happened when Soviet support 
collapsed in the early 90s, and overall foreign merchandise 
coming into North Korea dropped by half. The Korean economy 
seized up, and there was a mass famine. Even Kim Jong-il had to 
make concessions and reforms to stay in power.
    In the last five years, based on a combination of a limited 
and controlled private market system within the country and a 
restoration of inflows of food and merchandise from other 
countries, North Korea has improved and stabilized its economy. 
Yet it remains vulnerable to sanctions. International sanctions 
against North Korea are less strict than those against either 
Syria or Iran. Many countries are paying even these sanctions 
lip service, while permitting North Korean slave labor to work 
in their countries and turning a blind eye to criminal activity 
run out of North Korean embassies.
    Part of the work in putting a true economic squeeze on 
North Korea is up to China. However, the United States can 
influence that by secondary sanctions against Chinese companies 
that are successfully violating the sanctions. The rest of the 
work is divided among many countries. The United States is 
beginning to monitor sanctions implementation by other 
countries, almost all of which can be shamed into tightening 
sanctions, as was Malaysia following the assassination of Kim 
Jong-un's half-brother in the Kuala Lumpur airport. It will 
take a sustained intelligence and diplomatic effort to build 
international economic sanctions that will cause real pain to 
North Korea's leaders, but it has not been done yet.
    3. Misconception Three: Korea will never give up its 
nuclear weapons.
    In fact, North Korea has bartered some of its nuclear 
weapons programs for political and economic concessions.
    It is true that North Korea will comply only and barely 
with provisions of agreements it signs that can be inspected, 
and it will hide as much as it can of other parts of its 
program. Under the 1994 Agreed Framework North Korea concealed 
its uranium enrichment program, but it did agree to give up its 
plutonium program. In 2008, the Six Party talks had produced an 
agreement that controlled both the plutonium and uranium 
nuclear weapons programs. North Korea balked at the end of the 
negotiations and refused to agree to effective verification.
    Although there are many advantages to North Korea from 
having nuclear weapons, there are also heavy costs. The 
negotiating record shows that North Korea cannot be trusted any 
further than it can be inspected, but that it is also willing 
to give up at least some of its nuclear weapons in return for 
American economic and political concessions.
    For the future, the international community should not 
accept North Korea as a nuclear state, and the objective of 
complete, verifiable and irreversible dismantlement of all 
North Korea's nuclear weapons should remain the ultimate 
objective of the United States and the entire international 
community. However, while retaining that overall objective, the 
United States may learn something and may gain something by 
patient, well prepared and skeptical negotiations with the 
North Koreans about their nuclear programs.
    4. Misconception Four: Time is on North Korea's side.
    In fact, important trends are running against North Korea.
    Its primary supporter, China, is increasingly considering 
it a liability, and is actively discussing with the United 
States the possibility of North Korean collapse. Its economy 
hangs by a thread, vulnerable to internal mismanagement, 
rampant corruption, and external reductions of support. It 
cannot feed itself. Pyongyang is a Potemkin village of faux 
prosperity and modernity as the rest of the country struggles 
to survive. The physical condition of its soldiers is 
deteriorating and it cannot afford to modernize its military 
equipment. The number and level of defectors is increasing.
    Among its roughly 25 million people it has been able to 
identify and educate the several thousand scientists and 
engineers required to develop nuclear weapons, missiles and 
cyber-attacks. It has supported them with first call on its 
tiny industrial sector; using the hard currency it earns 
through criminal activities, it purchases on the international 
black and gray markets the remaining components these programs 
need.
    North Korea is no more than an extreme example of a pattern 
we have seen many times in history, a pattern with an unbroken 
record of regime failure. Dictators attempt to maintain their 
grip on power through a combination of repression, nationalism 
and materialism. They ultimately fail. The Kim dynasty so far 
has been unflinching in its repression, but its nationalism is 
artificial and it consistently fails to meet the material needs 
of its people. The wheels will come off sooner or later. The 
United States should pursue policies that make that date as 
soon as possible, but recognize that the pressure from within 
North Korea will be the primary cause of collapse.
    5. Misconception Five: American policy towards North Korea 
has failed.
    By any objective measure, American policy on the Korean 
Peninsula has been a signal success.
    At the end of the Korean War in 1953, the Korean Peninsula 
was divided into two countries, one an ally of the United 
States and the other an ally of the Soviet Union. North Korea 
had most of the industrial capacity and natural resources on 
the Peninsula. With China's and the Soviet Union's approval it 
had attempted to conquer South Korea by force of arms, and was 
still determined to do so.
    Sixty-five years later South Korea is still America's ally, 
it is the 4th largest economy in Asia and the 11th largest in 
the world, it has transitioned peacefully from a dictatorship 
to a democracy, and North Korea has no chance of conquering it 
successfully.
    North of the DMZ is a country that has nuclear weapons, but 
has no allies or friends, is among the poorest in the world and 
is a brutal dictatorship.
    To judge American policy on the Korean Peninsula by its 
failure to achieve one of its many objectives, prevention of a 
North Korean nuclear capability, is both narrow and dangerous. 
Any country that is willing to sacrifice the well-being of its 
people and endure international diplomatic and economic 
isolation can develop nuclear weapons. The technology and the 
component parts are widely available.
    6. The United States has no policy choices but to attack 
North Korea.
    In fact, building on what it has learned in dealing with 
North Korea over the years, the United States has many policy 
choices.
    American policy towards North Korea must evolve to meet 
North Korea's advances in developing long-range missiles, 
nuclear weapons and cyber weapons. There have also been changes 
in the security environment in Northeast Asia that must be 
taken into account. However, the successes as well as the 
shortcomings of past American policy should be considered as 
the United States formulates policies for the future to deal 
with North Korea.
    Yes, North Korea has been able to develop nuclear weapons. 
They have had them for 25 years. However, the Kim dynasty, with 
its finely-honed survival instincts and skills, is as subject 
to deterrence from the actual use of those weapons as have been 
all governments, totalitarian or democratic, that have 
developed a nuclear capability since the atomic age began. 
Although the development of nuclear weapons has been a high 
priority for North Korea, over the years it has been willing to 
trade parts of its program for political and economic gains. 
While never recognizing it as a nuclear state, other countries 
can shape North Korea's nuclear weapons program through 
negotiations. Sanctions against North Korea can be much 
stronger than they ever have been, cause greater economic pain, 
especially to the members of Kim dynasty and its immediate 
supporters. Many trends are running against North Korea that 
the United States can nurture and reinforce.
    Military preparedness, and the use of military force are 
vital components of American policy towards North Korea. The 
United States and the Republic of Korea have developed, 
exercised and resourced a contingency plan to turn back a North 
Korean attack, destroy the North Korean armed forces, and take 
control of the entire peninsula. North Korea knows that it will 
lose a major war if it starts one. Damage will be heavy on all 
sides, but there is no question about the outcome. North Korea 
keeps its provocative actions below the threshold that it 
believes will trigger a major conflict it knows it will lose.
    The United States and the Republic of Korea have been less 
effective in responding to North Korean provocations below the 
level of major attack--from the capture of the Pueblo to the 
sinking of the South Korean frigate Cheonan to cyber-attacks. 
Responses that have been effective are serious military 
operations like the chopping down of the cherry tree in the DMZ 
in 1976, backed by major force deployments to South Korea, and 
the preparations to bomb the Yongbyon reactor in 1994. Every 
time the US-ROK response has been relevant and strong, 
supported by contingency plan preparations that make it clear 
that if North Korea escalates the Alliance is ready for major 
war, North Korea backs down. It will later in the future commit 
further and different provocations, but it will retreat in the 
near term.
    The United States and the Republic of Korea should respond 
promptly and disproportionately to North Korean provocations 
such as missile tests that land on or near American, South 
Korean or Japanese territory and nuclear tests in the Pacific 
Ocean, as well as traditional limited military provocations by 
special forces or regular military units. North Korea will 
understand that the actions are retaliation for what North 
Korea has done. At the same time, when these responses take 
place, the Combined Forces Command of the United States and the 
Republic of Korea must raise its readiness level so the North 
Koreans know that if they escalate the confrontation, they risk 
starting a war they know they will lose.
    Finally, the kryptonite that can weaken North Korea is 
information from beyond its borders. Subjected to an 
unrelenting barrage of government propaganda, ordinary 
citizens, soldiers, and even many in the favored elites do not 
understand just how bad things are in their country compared to 
the rest of the world. About one fifth of North Koreans have 
access to cell phones that connect to cell towers on the 
Chinese side of the Yalu River, allowing penetration of 
information from the outside. Texts to these cell phones can 
provide subversive truth. There are many other ways that 
Koreans can be informed about the true state of their country, 
countering the relentless propaganda and repression of the Kim 
regime. Cell towers can be extended; CDs and thumb drives can 
be smuggled in; radio and TV stations can be beamed there. 
While it is very difficult for ordinary citizens to revolt 
against the regime, the objective is to separate the Kim family 
from its primary support--the secret police, the Army and the 
propaganda ministry. In other equally brutal totalitarian 
states, these elites have realized that life would be better 
for their country if they replaced the dictator, and once that 
process starts, it is hard to stop. Such will be North Korea's 
fate.

    Senator Inhofe. Thank you, Admiral.
    Dr. Green?

STATEMENT OF MICHAEL J. GREEN, Ph.D., SENIOR VICE PRESIDENT FOR 
 ASIA AND JAPAN CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Dr. Green. Thank you, Senator Inhofe, Senator Reed, and 
members of the committee.
    If I may, I would like to just briefly open my remarks by 
acknowledging the enormous contributions Senator McCain has 
made as chairman of this committee to American focus, resolve, 
and credibility in the Asia-Pacific region, all things we are 
going to need as we address the topic we are focusing on today.
    The administration's ``Free and Open Indo-Pacific 
Strategy,'' I believe, is a useful framework that recognizes 
great power competition with China and the importance of 
solidifying our alliances with democratic allies and partners 
in the region. The strategy will only have credibility if it is 
resourced and if we do something about the vacuum that we have 
created by withdrawing from the Trans-Pacific Partnership, and, 
of course, if we are wise, managing the growing threat posed by 
North Korea's rapid development and deployment of nuclear 
weapons and ballistic missiles.
    The Hwasong-15 missile tested last year is a road-mobile, 
solid-fueled intercontinental ballistic missile that ranges the 
United States and would be extremely difficult to find and 
destroy in a crisis scenario with Pyongyang, and the North is 
probably months away from being able to develop and deploy a 
warhead that could survive reentry into the atmosphere.
    I believe, with this new capability, we are entering 
dangerous territory with North Korea.
    First, North Korea will likely use nuclear blackmail 
against the United States as a shield for increased coercion 
and intimidation comparable to the 2010 attacks on South Korea, 
when North Korea sunk the corvette Cheonan in order to decouple 
the United States from our allies and try to force Seoul to 
make concessions and perhaps, one day, capitulate to the North.
    Second, with nuclear weapons capability, North Korea will 
be tempted to transfer this capability to other dangerous 
actors in pursuit of cash or leverage against the United 
States, as Pyongyang threatened to do in 2003 in talks I joined 
with the North Koreans in Beijing and then subsequently did 
when they helped Syria build a reactor complex in El Kibar in 
2007 until the Israeli Air Force took it out.
    Third, this new dynamic could create a situation where our 
allies, Japan or South Korea, may question the viability of our 
nuclear umbrella.
    I do not think diplomacy is going to solve this problem for 
us in any meaningful way in the foreseeable future. I do 
believe, as Admiral Blair said, there is a role for dialogue 
with North Korea in terms of clarifying positions, gathering 
intelligence. But I could not tell you a realistic formula 
under which North Korea abandons its nuclear weapons programs 
in the foreseeable future, even with significantly increased 
pressure.
    The administration probably knows this, which is why we 
hear talk of preventive war or now a bloody nose strategy 
designed to force Pyongyang to back down. But I do not believe 
that preventative military action is going to solve this 
problem for us either.
    It is possible that Pyongyang would capitulate after a 
United States military strike, but we have not tested that 
proposition since the Korean War, and most North Korea experts 
in and out of the United States Government will tell you that 
Kim Jong Un would have to strike back.
    Escalation to nuclear, biological, or chemical weapons by 
the North would mean a conflict that goes from tens of 
thousands killed to millions. Put another way, the preventative 
use of military force is likely to make the dangers associated 
with North Korea's nuclear and ballistic missile programs 
worse, increasing tensions with our allies, the danger of North 
Korean transfer to third parties, and the prospect that Japan 
or Korea might consider their own nuclear weapons if they were 
hit in retaliation after a United States strike.
    I find it difficult to imagine a situation or a meeting in 
which the principals decide that these risks are more tolerable 
than the risks associated with a strategy of containing and 
deterring North Korea.
    I suspect that the administration has not fully weighed 
these options because they are in the mode of maximizing 
pressure on North Korea in the hope of obtaining a diplomatic 
breakthrough. But I believe that, sooner or later, we are going 
to be forced to look at a new strategy that focuses on 
containment and deterrent.
    Now, the elements of this strategy are worth debating now. 
We need to enhance and expand the robust financial sanctions 
introduced in September, the most sweeping we have ever imposed 
on North Korea, including the application, where appropriate, 
to third countries and firms and entities in China and Russia 
that are enabling North Korea in violation of Security Council 
sanctions. We need to engage in maritime interdiction 
operations against ships we are already tracking to stop inward 
and outward proliferation. We need to increase bilateral and 
regional missile defense cooperation with our allies. We need 
to reboot our relationship with Seoul. The United States-Korea 
alliance, in my view, is the center of gravity in this entire 
problem. We need an Ambassador in Seoul. We need to avoid 
gratuitous trade friction with our allies at a time when our 
enemies and our adversaries are trying to decouple us from 
South Korea.
    We have to address shortfalls in ammunition, readiness, and 
joint exercises so that military options are credible, should 
they become necessary. We need to update our counter-
provocation planning with South Korea to ensure, as Admiral 
Blair said, that we are ready for prompt and decisive responses 
to North Korean attempts at coercion, which they may be tempted 
to expand with their new capability.
    We do need to increase diplomatic, economic, and military 
pressure not only on North Korea but on third states that might 
be tempted to become potential customers of Pyongyang.
    We need a diplomatic track. As Admiral Blair said, we need 
to be deeply skeptical. We should not go in with the 
expectation it will yield decisive results, and we should not 
trade away sanctions, deterrence, or readiness just for the 
privilege of talking with North Korea.
    For all of this, we are going to have to increase 
intelligence support.
    This approach involves an increased level of risk for the 
United States. It is not the approach we have had in the past, 
but I think the level of risk we are talking about is more 
tolerable and more appropriate than the risk associated with 
either passive deterrence or moving toward preventive war or a 
so-called bloody nose.
    This strategy is also less likely to break American 
alliances, damage American credibility, and, therefore, would 
better position us to implement an effective, free, and open 
Indo-Pacific strategy to deal with a larger challenge we face, 
which is the rise of China and the shifting balance of power in 
the region.
    Thank you.
    [The prepared statement of Dr. Green follows:]

               Prepared Statement by Dr. Michael J. Green
    I appreciate the opportunity to address the committee on the Trump 
administration's broader ``Free and Open Indo-Pacific Strategy'' and 
the rising danger posed by North Korean nuclear proliferation.
    In my view the administration is to be commended for articulating a 
strategic framework for the Asia-Pacific region that recognizes great 
power competition with China and the importance of solidifying our 
alliances and partnerships with maritime democracies. However, the Free 
and Open Indo-Pacific framework still suffers from two major 
shortcomings. The first is the administration's complete retreat on 
trade, which puts American agriculture exporters at risk as our 
partners negotiate new access agreements in the region without us--and 
our strategic influence at risk as China fills the vacuum we have 
created with their own initiatives like the ``Belt and Road.''
    The second and more immediate challenge is North Korea's rapid 
development and deployment of nuclear weapons and ballistic missiles. 
The Hwasong-15 missile tested last year is a road-mobile, solid-fueled 
intercontinental missile that ranges the United States and would be 
extremely difficult to detect and pre-emptively destroy in a crisis 
scenario. CIA Director Mike Pompeo has indicated that the North may be 
months away from deploying nuclear warheads capable of surviving re-
entry into the atmosphere when launched on the Hwasong-15.
    For 25 years Republican and Democratic administrations have tried 
to contain the North Korean nuclear weapons program with a combination 
of calibrated pressure and engagement. The quantity and quality of the 
North Korean nuclear and missile capability will no longer allow 
business as usual.
    First, North Korea will likely use nuclear blackmail against the 
United States as a shield for increased coercion and intimidation 
comparable to the 2010 attacks on the South Korean corvette Cheonan in 
order decouple us from our allies and force Seoul to make concessions 
and perhaps one day capitulate.
    Second, North Korea will be tempted to transfer their capability to 
other dangerous actors in pursuit of cash or leverage against the 
United States, as Pyongyang did in 2007 when it helped Syria build the 
El Kibar reactor before the Israeli Air Force destroyed that facility.
    Third, some argue that Japan or South Korea may question the 
viability of our nuclear umbrella and be tempted to consider nuclear 
proliferation.
    Diplomacy is not going to solve this problem for us. Dialogue with 
North Korea will probably become necessary in terms of clarifying 
positions, managing crises and gathering intelligence, but I could not 
tell you a realistic formula under which North Korea abandons its 
programs even with significantly increased pressure.
    The administration knows this, which is why we hear talk of 
preventive war and now a ``bloody nose'' strategy designed to force 
Pyongyang to back down. I do not think preventive military action is 
going to solve this problem for us either, though. It is possible that 
Pyongyang would retreat and capitulate after a United States military 
strike, but we have not tested that proposition since the Korean War 
and most North Korea analysts would tell you that Kim Jong-un would 
have to strike back. Escalation to nuclear, biological or chemical 
weapons by the North would mean a conflict that goes from tens of 
thousands killed to millions.
    Put another way, the preventive use of military force is likely to 
make the dangers associated with the North's nuclear and ballistic 
missile programs worse. Even the talk of preventive military action is 
driving South Korea closer to China and having the perverse effect of 
accelerating Pyongyang's goal of decoupling us from one of our key 
allies. Military escalation would increase the likelihood that North 
Korea transfers nuclear capabilities to a dangerous third state. Should 
North Korea strike back at Japan or South Korea and survive, the 
manifest failure of deterrence on our part would make those allies more 
likely to consider their own nuclear weapons.
    I cannot imagine a Situation Room meeting in which the Principals 
decide that these risks are more ``tolerable'' than the risks 
associated with a strategy of containing and deterring North Korea. I 
suspect the administration has not fully weighed those options because 
they are in the mode of maximizing pressure on North Korea in the hope 
of attaining a diplomatic breakthrough. They may be right that dropping 
the option of a preventive military strike would weaken U.S. leverage 
at this point. Eventually, however, they will confront the reality that 
neither diplomacy nor war will solve this problem and they will have to 
focus on a new strategy to reduce the dangers.
    The elements of this new strategy are clear:
    <bullet>  Enhance and expand the robust financial sanctions 
introduced in September, to include the application of secondary 
sanctions against Chinese or other firms assisting North Korea;
    <bullet>  Engage in maritime interdiction operations (MIO) against 
ships we are already tracking in order to contain inward and potential 
outward proliferation by North Korea;
    <bullet>  Increase bilateral and regional missile defense 
cooperation with our allies;
    <bullet>  Reboot our relationship with Seoul by sending an 
ambassador and avoiding gratuitous trade friction;
    <bullet>  Address shortfalls in ammunition, readiness and joint 
exercises so that military options are credible should they become 
necessary;
    <bullet>  Update our counter-provocation strategies with South 
Korea to ensure prompt and decisive responses to North Korean attempts 
at coercion;
    <bullet>  Increase diplomatic, economic and military pressure to 
deter third states from becoming potential customers for North Korea;
    <bullet>  Engage in diplomacy with North Korea as one line of 
effort, but not with the expectation it will yield decisive results and 
not at the cost of implementing these other elements of deterrence and 
containment;
    <bullet>  Increase intelligence support.
    This approach involves an increased U.S. tolerance for risk 
compared with the past, but that level of risk is more tolerable and 
appropriate than either passive deterrence or preventive war. The 
strategy is less likely to break American alliances or credibility and 
would better position the United States to implement an effective Free 
and Open Indo-Pacific Strategy to deal with the larger tectonic shift 
we face as Chinese power and ambitions grow.

    Senator Inhofe. Thank you.
    Ms. Magsamen, back to you.

   STATEMENT OF KELLY E. MAGSAMEN, VICE PRESIDENT, NATIONAL 
SECURITY AND INTERNATIONAL POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Magsamen. Good to see you. Senator Inhofe, Ranking 
Member Reed, members of the committee, my fellow panelists, it 
is an honor to testify today.
    Given the strategic importance of the Indo-Pacific to 
American interests as well as the potential for historic 
conflict with North Korea, this hearing provides a much-needed 
public discussion of the stakes involved. I am submitting a 
fuller written statement for the record.
    But first, I should be clear about one thing: North Korea 
poses a serious threat to the United States and its allies. 
North Korea is the country violating multiple U.N. Security 
Council resolutions. Kim Jong-un is a ruthless tyrant building 
nuclear weapons on the backs of his oppressed people. However, 
with tensions high and increasing talk of preventive United 
States military action, I am deeply concerned about the 
prospect of war with North Korea, whether by miscalculation or 
by design.
    I believe that after a thorough analysis of a likely cost 
of preventive war, as well as a careful examination of the 
alternatives, it is nearly impossible to conclude that 
preventive use of force is advisable or even the least bad 
option, in terms of advancing our national security interests.
    War with North Korea would have significant human, 
economic, and strategic costs, some of which I will outline 
briefly today.
    Estimating the human costs of war is always an imperfect 
exercise. Much depends on assumptions and scenarios. However, 
even a limited military strike would likely escalate quickly 
into a regional conflagration.
    South Korea would face an artillery barrage on Seoul, if 
not a nuclear or chemical attack from the North. According to 
the Congressional Research Service, between 30,000 and 300,000 
could die within days of the conflict, and that is just a 
conventional conflict.
    In addition to 28,500 United States military personnel and 
thousands of their dependents, there are approximately 100,000 
to 500,000 American citizens living in South Korea. There are 
hundreds of thousands of American citizens and military 
personnel living in Japan. Of course, Hawaii, Guam, and Alaska 
are all within range of North Korean missiles.
    In the aftermath of war, we would be immediately confronted 
with a massive humanitarian crisis, not to mention issues of 
reunification, transitional justice, and demobilization of the 
North Korean army. Just to give you a sense of scale, the North 
Korean army, including reservists, is around seven million 
strong. That is 25 times the size of the Iraqi army in 2003.
    There would be economic costs as well. South Korea and 
Japan are the 12th and third largest economies, respectively. 
Both are deeply integrated into global supply chains. If 
nuclear conflict were to occur, RAND estimates that such an 
attack would cost at least 10 percent of South Korea's GDP 
[Gross Domestic Product] in the first year alone and that those 
losses would likely be extended for at least a decade.
    Further, direct costs to United States taxpayers of a war 
with North Korea would be significant. According to another 
2010 RAND report, estimates for long-term reconstruction of the 
Korean Peninsula would top $1 trillion. I personally think that 
estimate is low.
    Then there are the strategic costs. First, a preventive war 
without the full support of our Asian allies would do lasting 
damage to trust in America, not just in Asia, but globally. 
China and Russia will not sit on the sidelines. China will 
almost certainly intervene to advance its own interests.
    It is likely that China would seek to occupy North Korea at 
a minimum to prevent state collapse, but also to secure the 
nuclear sites to their advantage. A long-term Chinese presence 
in North Korea, and it would almost certainly be long term, 
would have serious implications for our alliances and our long-
term interests in Northeast Asia.
    In a worst-case scenario, absent substantial strategic and 
tactical deconfliction in advance, there is the potential that 
a direct United States-China conflict could easily materialize. 
Russia, which does share a small land border with North Korea, 
could be counted on to play spoiler.
    There would also be the global opportunity costs. A war 
with North Korea would become the central preoccupation of the 
President and his national security team for the duration of 
his term, limiting strategic bandwidth for the United States to 
deal with other key challenges, like Russia, China, and Iran.
    These are just some of the factors the administration would 
need to consider and address in expansive contingency planning, 
if they do intend to use preventive use of force.
    Finally, I would like to make four quick points on the case 
for preventive use of force.
    Arguments for preventive force are predicated on ultimately 
unknowable determinations of Kim Jong-un's rationality. It 
would be a tremendous gamble to bet on how Kim Jong-un would 
perceive our intentions as well as on his own decision-making.
    While the potential for nuclear coercion is real, I agree 
with Dr. Green, we have a record of successful deterrence and 
pushback. A preventive attack would undermine America's 
deterrence strategy by showing we are willing to sacrifice our 
allies, essentially decoupling them from ourselves.
    Three, I have real questions about the purpose and 
effectiveness of limited preventive use of force. What would we 
be trying to achieve? How would we control escalation? Would we 
have high confidence in our success?
    Finally, there are basic military realities, which we 
cannot ignore. In my view, there is no such thing as war over 
there versus war over here. Millions of innocent civilians, 
including Americans, are already at risk today.
    In sum, national security decision-making often forces us 
to choose the least-bad option. By far, in the case of North 
Korea, the worst option is war.
    As my fellow panelists have mentioned, there are other 
options on North Korea that better advance our long-term 
national security interests at much lower risk, and I look 
forward to discussing them with the committee today.
    [The prepared statement of Ms. Magsamen follows:]

                Prepared Statement by Kelly E. Magsamen
    Chairman McCain, Ranking Member Reed, members of the Committee, my 
distinguished fellow panelists--it's an honor to testify today on one 
of our most vexing national security challenges--North Korea. Given the 
potential for historic conflict with North Korea, this hearing provides 
a much-needed public discussion of the stakes involved.
    First, I should be clear about one thing: North Korea poses a 
serious threat to the United States and our allies. North Korea is the 
country violating multiple United Nations Security Council resolutions. 
And Kim Jong-un is a ruthless tyrant building nuclear weapons on the 
backs of his oppressed people.
    I worked the North Korea challenge every day in my years at the 
Department of Defense, so I am deeply familiar with the adage that 
North Korea is the land of lousy options. They are no easy solutions or 
silver bullets. But I do believe there are some basic ingredients to a 
sound strategy:
    <bullet>  Clear and consistent strategic messaging;
    <bullet>  Sustained high levels of international pressure;
    <bullet>  Diplomatic persistence, clarity and creativity;
    <bullet>  Strong alliance management;
    <bullet>  Credible deterrence with responsible risk management; 
and,
    <bullet>  Healthy skepticism about the intentions of China.
    To its credit, the Trump Administration has had some important 
achievements on increasing pressure on North Korea, including strong UN 
Security Council sanctions resolutions and pushing China further along. 
In some ways, these are extensions of the Obama Administration's 
strategy and I believe more can be done to increase pressure. However, 
the Trump Administration's strategy has also been plagued by 
incoherence and neglect on many of these other fronts--and as a result, 
the sum has not been greater than its parts.
    With tensions high and increasing talk of preventive United States 
military action, I am deeply concerned about the prospect of war with 
North Korea--whether by miscalculation or by design. The question we 
should be asking ourselves is whether initiating armed conflict with 
North Korea is necessary or advisable to advance long-term United 
States national security interests. I believe that after a thorough 
analysis of the likely costs of preventive war, and a careful 
examination of the alternatives, it is nearly impossible to conclude 
that the preventive use of force is advisable or even the least bad 
option in terms of advancing our interests and minimizing risk.
    There is a role for the military instrument to play--it is 
essential for deterrence credibility, the defense of our allies and to 
back up diplomacy. But use of force should always be of last resort. If 
there is an imminent threat to United States Forces in Korea or Japan 
or elsewhere in the region, or against the United States Homeland, our 
right to self-defense is clear and absolute. However, there are sound 
reasons that multiple Administrations have refrained from using force 
preventively--it would likely be catastrophic in human, economic and 
strategic terms, not to mention illegal.
The Human Costs:
    Estimating the human costs of war is always an imperfect exercise. 
Much depends on assumptions and scenarios. However, even a limited 
military strike would likely escalate quickly into a regional 
conflagration. South Korea would likely face an artillery barrage on 
Seoul, if not a nuclear or chemical attack from the North.
    According to the Congressional Research Service, between 30,000 and 
300,000 people could die within days of the conflict. In addition to 
28,500 U.S. military personnel and thousands of their dependents, there 
are approximately 100,000 to 500,000 American citizens living in South 
Korea. North Korea's ballistic missiles can also range Tokyo, the 
world's largest city, putting millions at risk. Hawaii and Guam- where 
millions of American citizens reside--are at the top of the North 
Korean target list.
    Inside North Korea, a major humanitarian crisis would likely unfold 
in the aftermath of use of force. Food supplies and basic health care 
would be scarce, exacerbated by massive refugee flows numbering in the 
millions. Hundreds of thousands of political prisoners and detainees 
would also need critical attention.
    Post-conflict security demands would be similarly daunting. North 
Korea has the fourth largest military in the world: over a million 
strong with more than seven million reservists. Including troops and 
reservists, that is nearly 25 times the size of the Iraqi army in 2003. 
Even as foreign forces worked to seize nuclear sites and materials, 
stocks of chemical weapons would be scattered around the country, along 
with caches of conventional weapons in underground tunnels and 
facilities.
    Surviving factions could ignite civil war and insurgency. As a 
result, according to some estimates, stabilization and peacekeeping 
tasks could require more than 400,000 troops.
    This does not even begin to address the complex governance issues 
that would instantly emerge. We have encountered questions on 
unification, demobilization, and transitional justice in prior 
conflicts and have not acquitted ourselves well in dealing with them. 
Members of this Committee certainly remember these lessons from our 
experiences in Iraq.
The Economic Costs:
    On the potential economic costs of war, let's start with a few 
simple facts:
    <bullet>  The Republic of Korea (ROK) is the 12th largest economy 
in the world and is deeply integrated into global supply chains.
    <bullet>  Japan is the 3rd largest economy in the world by nominal 
GDP, and deeply integrated into global supply chains.
    <bullet>  The ROK and Japan account for approximately 7% (or $1.14 
trillion) of global merchandise exports and 6% (or $1.01 trillion) of 
global merchandise imports. Japan is the world's 4th largest exporter 
and 5th largest importer of merchandise; South Korea is the world's 8th 
largest exporter and 10th largest importer of merchandise.
    If nuclear conflict were to occur, the RAND Corporation estimates 
that such an attack would cost at least 10 percent of the ROK's GDP in 
the first year alone and that those loses would likely be extended for 
at least ten years. And these estimates don't even include a strike on 
Hawaii or Japan.
    Further, direct costs to United States taxpayers of a war with 
North Korea would be significant. According to another 2010 RAND 
report, estimates for long-term reconstruction of the Korean Peninsula 
top $1 trillion.
The Strategic Costs
    The strategic costs of preventive war with North Korea would be 
quite consequential for long-term United States interests, even 
assuming military success. Three questions factor most in my mind:
    <bullet>  What will be the long-term impact on our alliances? If a 
military strike is conducted without the concurrence of the Republic of 
Korea and Japan, you can expect an end to the alliance relationships as 
we know them in Asia and probably around the world. A preventive war 
without the full support of our Asian allies would likely do lasting 
damage to trust in America--not just in Asia but globally. Without our 
alliances and partnerships, the United States role as a Pacific power 
would be fundamentally diminished for the long term.
    <bullet>  What will China and Russia do? China will almost 
certainly intervene into a destabilized North Korea, creating both 
military and political obstacles for the United States. It is likely 
that China will seek to occupy North Korea, at a minimum to prevent a 
complete state collapse and to secure nuclear sites. A long-term 
Chinese presence in North Korea--and it would almost certainly be long-
term--has implications for our alliance with the Republic of Korea and 
our interests in Northeast Asia. And in a worse-case scenario, absent 
substantial strategic and tactical deconfliction in advance, a 
potential United States-China conflict could easily materialize. 
Russia, which shares a small land border with North Korea, will most 
certainly oppose United States intervention and continue to play 
spoiler alongside China.
    <bullet>  What would be the opportunity costs for the U.S.? This 
question never gets enough attention. War with North Korea would become 
the central preoccupation of the President and his national security 
team for the duration of his term--crowding out all other issues and 
limiting strategic bandwidth for the United States to deal with 
challenges like Russia, China and Iran. If great power competition with 
China and Russia are indeed central to United States national security 
strategy, then war with North Korea would almost certainly distract 
United States resources and focus and increase China's opportunities in 
the region. From a basic force management perspective, hard trade-offs 
would need to be made with respect to forces and capabilities in other 
theaters.
Examining the Argument for Preventive Use of Force
    There are some who argue that preventive use of force is the least 
bad option. They predicate this view in part on an assumption that Kim 
Jong-un is not a rational actor and therefore deterrence is not a 
reliable option for preventing a nuclear first strike against the 
United States. They also suggest that once North Korea achieves a full 
ICBM capability, Kim Jong-un will use that capability to hold the 
United States Homeland at risk while forcibly unifying the Korean 
Peninsula. While no one can credibly predict North Korean intentions 
and the possibility of nuclear coercion is real, there are some 
empirical weaknesses in this line of argument. Let me break it down:
    <bullet>  First, history shows otherwise. While reunification 
remains the stated objective of both North and South Korea, the 
credible threat of American and ROK firepower has prevented North Korea 
from pursuing that reunification by force since 1953. More than 28,000 
United States troops remain on the Peninsula today, backed up by our 
extended deterrence commitment that would bring to bear the full 
spectrum of American power. Strengthening our deterrence credibility 
starts not with an overt demonstration of U.S. power in defense of our 
own citizens and interests, but with the credibility of our commitment 
to defend the citizens and interests of our allies. A preventive attack 
will undermine America's deterrence strategy by showing that we are 
willing sacrifice our allies, essentially decoupling them ourselves.
    <bullet>  Second, there are the basic military realities. There are 
some that have suggested that ``war over there is better than war over 
here.'' But let's be honest: North Korea already has the capability to 
hold United States interests at risk in the Pacific--with nuclear-
tipped missiles ranging Hawaii and Guam where millions of American 
citizens live, not to mention the hundreds of thousands of American 
civilians living in both Korea and Japan. So, war over there would also 
potentially costs millions of American lives.
    <bullet>  Third, the arguments for preventive use of force are 
predicated on ultimately unknowable determinations on Kim Jong-un's 
rationality.
        What would be the objective and how would we effectuate the 
desired outcome, especially if he is irrational? Much will depend on 
Kim Jong Un's perceptions of our intentions. So if we assume Kim Jong 
Un is indeed an irrational actor, why would we think that he would 
exercise restraint when presented with a limited U.S. military strike? 
This is the central flaw in argument for the ``bloody nose'' approach. 
Escalation is extremely likely and deterrence cuts both ways.
    <bullet>  Finally, there are real questions about the effectiveness 
of preventive use of force. What would a limited strike ultimately seek 
to achieve? If it is to show we are serious and force Kim Jong-un to 
the negotiating table, it is unlikely that he will oblige. If the 
objective of a strike is to take out his nuclear and ballistic missile 
programs, then that is not a limited military option. In my judgment, 
that would be a full-scale war and in that case, we would need to have 
high confidence that we were able to hit everything and that the 
nuclear, chemical and ballistic programs could not be reconstituted. In 
fact, in a letter to Congress last year, the Pentagon itself estimates 
that eliminating all of North Korea's nuclear capabilities would 
require an actual ground invasion.
What are the other options?
    National security decision-making often forces us to choose the 
least bad option. Make no mistake that with North Korea there are no 
good options and all carry risk, but by far the worst is war. In my 
view, the least bad option is to contain, deter, pressure, and 
vigorously try to open a genuine diplomatic process. So where does that 
leave us?
    <bullet>  First, there is the need to refresh our approach to 
diplomacy and make clear to North Korea that the door is open. We all 
know that diplomacy with North Korea has a checkered past, but it must 
be the leading line of United States effort if for no other reason that 
diplomacy is the necessary predicate to all other options. And while 
North Korea has demonstrated little interest in meaningful diplomacy 
over denuclearization, we need to be clear, persistent and creative 
about how we approach any negotiations. There has been significant 
confusion over U.S. intentions in this regard. We also need to consider 
that at the heart of the North Korea problem is a security dilemma, not 
just an arms control and proliferation problem. We need to think 
creatively about how to address that dilemma in concert with our 
allies--including what assurances we would be prepared to offer in 
exchange for meaningful and verifiable limits on their nuclear program. 
Diplomacy will also likely only have a chance if it begins without 
preconditions and moves in stages of confidence-building. We should 
also be positioning ourselves to shape any negotiations to our 
advantage and not allow the North Koreans to seize the initiative. For 
this to be possible, I would encourage the
    Administration to appoint an experienced high-level envoy that has 
the unambiguous backing of the White House to coordinate diplomacy and 
messaging with our allies and who would be dedicated full time to the 
pursuit of negotiations.
    <bullet>  Second, we should consider a shift in our strategy vis-a-
vis China. While the Chinese do not share our long-term interests on 
the Korean Peninsula, they do worry about two things: secondary 
sanctions and American encirclement. On the sanction front, the 
Administration has only just begun to get serious with China, and the 
United States should pull every non-military pressure lever it has over 
North Korea before putting American lives on the line. Critically, 
China can cut off North Korea's oil supplies, but it has not yet done 
so. The Administration should substantially ratchet up the costs 
Beijing bears by continuing to supply fuel not only for the North 
Korean economy but to its military as well.
    Further, the Chinese need to look out around the region and see the 
negative effect that a nuclear-armed North Korea will have on their 
long-term objective to impose a sphere of influence in their near 
periphery. We should consider what additional force posture is 
necessary to contain and deter a nuclear-armed North Korea and we 
should not hesitate to move forward with it, whether that is an 
additional THAAD battery on the Peninsula, support for Japanese 
acquisition of key capabilities, or additional United States air, naval 
and ground forces around the region. As the United States bolsters 
deterrence and containment against North Korea, United States policy 
must send the unmistakable signal to China that, if the threat from 
North Korea remains, the United States will strengthen its military 
posture in Northeast Asia. We also need to work harder to improve 
Japan-ROK relations and further operationalize trilateral cooperation--
not just to prevent North Korea from driving wedges, but also China.
    <bullet>  Third, we are likely to find ourselves in a containment 
and deterrence scenario and we should begin conceptualizing what would 
be necessary in that scenario to limit risk. This is obviously no one's 
preferred outcome and it certainly carries risks. But given the 
challenges of diplomacy with North Korea and given the overwhelming 
risks of war, I think we also need to be realistic. What would an 
active containment and upgraded deterrence strategy look like that 
would minimize risk, protect our long-term strategic interests and 
could be executed in concert with our allies? We need to be thinking 
hard about how to upgrade our extended deterrence commitments to our 
allies, how to improve conventional deterrence, as well as a much more 
integrated and enhanced counter-proliferation framework.
                               Conclusion
    A war of choice with North Korea would be the option of highest 
risk and unlikely to advance United States long-term strategic 
interests, and in my view, would potentially mortally wound them. Given 
the stakes involved with the use of force, the Administration owes our 
military and the American public the planning and preparation that was 
frankly absent with Iraq in 2003. Congress can help drive more public 
debate on the choices before us. This hearing is an important step in 
the right direction and I am grateful for the opportunity to present 
this testimony. I look forward to your questions.

    Senator Inhofe. Thank you very much.
    We will have 5-minute questions, and we will have a lot 
more turnout as they come back in from other committees.
    For a number of years, we have viewed the development and 
deployment of a layered ballistic-missile system as a defensive 
shield that is vital to our national security and that of our 
allies. We currently have 44 ground-based interceptors. That 
dropped down for a while to 33, and back to 44 now, California 
and Alaska, they have recently approved supplemental 
appropriations for adding 20 more to the total inventory.
    We have other missile-defense systems, such as Aegis and 
THAAD [Terminal High Altitude Area Defense], to help track and 
destroy missiles in the terminal phase.
    Senator Sullivan and several of us have kind of looked at 
the three phases and come to the conclusion that the boost 
phase would be probably the area that, if we could get that 
perfected, would cause them to be the most vulnerable. I think 
that we are kind of behind in that, and I would like to kind of 
explore that.
    Admiral Blair, you are more closely associated with these 
options that we have out there. What do you think about all 
three phases, and then concentrating on improving the boost 
phase?
    Admiral Blair. I agree completely, Senator Inhofe, that 
boost phase is the best point at which to shoot down missiles, 
because they have not had a chance to deploy all sorts of 
deceptive devices and different warheads and so on. As you 
know, that is something that has been known for a while, and we 
have been working on it.
    North Korea is what is called a thin country, so it cannot 
place it is missiles so far back that it can keep them out of 
boost-phase interceptor range, so I think that is a very 
important phase.
    I agree with you completely. We should be pursuing it.
    Senator Inhofe. I look at people like you, who have been 
involved in this for a long period of time. What is the reason 
that we have not jumped into the obvious phase that we could be 
most effective in?
    Admiral Blair. I think I would cite three things, Senator.
    Number one, we put a lot of effort into the airborne laser, 
which we thought would be exactly able to do that. It turns out 
the science was fine. The engineering was a lot harder than we 
thought, and eventually terminated the program.
    The only other two ways to get close enough to do a boost-
phase interceptor is with a ship off the coast or on Republic 
of Korea [ROK] territory. ROK has not until recently been 
willing to do the sort of cooperation that would host that. To 
keep a United States ship on station in North Korea 24/7/365 
has been a heavier burden than the other commitments of those 
ships have been willing to bear.
    So I think those are all things that should be revisited, 
and I agree with your emphasis.
    Senator Inhofe. Any other comments on that from the other 
two witnesses?
    Dr. Green. If I may add to Admiral Blair's comments, I 
agree with them. In addition to boost phase, we have one 
battery of THAAD in Korea. It is somewhat politically 
controversial. I suspect we will need more.
    The Japanese are looking at Aegis Ashore. Remember, we have 
bases there. We should support that and perhaps more 
interceptors at Fort Greely, Alaska.
    But the other thing I would add is that the architecture of 
missile defense is going to be critically important. China's 
opposition to the THAAD deployment, I believe, was more about 
preventing a Korea, United States, Japan, potentially 
Australia, architecture of missile defense. Frankly, that is 
exactly what we need to have more effective defenses.
    It also is a source of leverage for us, because if China 
doesn't want to see our alliances become more integrated and 
joint through missile defense, then China is going to have to 
put more pressure on North Korea. In other words, the more 
serious we are about missile defense with our allies, the more 
effective we will be at defending ourselves, but also the more 
effective we will be diplomatically at putting pressure on 
Beijing to, in turn, put pressure on North Korea.
    Ms. Magsamen, I would agree with Dr. Green's comments. I 
would add one thing.
    In addition to the importance of missile defense capability 
is the importance of actually being able to practice it 
alongside our allies. And so, really important is the 
trilateral defense cooperation that is ongoing in this regard. 
It certainly needs to be deepened.
    Senator Inhofe. I think most of the things that have been 
mentioned, and certainly by you, Dr. Green, we did address in 
the NDAA [National Defense Authorization Act], and we are aware 
that we have fallen behind there.
    I want to make one last comment, and this was 25 years ago, 
during Senate confirmation, CIA [Central Intelligence Agency] 
Director James Woolsey, who happens to be an Oklahoman and I 
have known him for quite some period of time, he said, ``We 
have slain a large dragon.'' He was referring to the Soviet 
Union. ``But we live now in a jungle filled with a bewildering 
variety of poisonous snakes.'' Of course, what he was talking 
about at that time 25 years ago, that was not quite the snake 
that we are talking about this morning. I think that is the 
most vexing of those poisonous snakes.
    Now, despite the fact that Russia and China represent the 
greatest threats and military supremacy, we understand that the 
word ``imminent,'' which I used in my opening statement, is a 
word that is used describing North Korea by every witness that 
we have had so far appearing before this committee.
    And so I would just ask the three of you, do you agree, in 
terms of the most imminent threat, that should be North Korea? 
Or do you want to stand out as the only three who do not agree 
with that?
    Admiral Blair. No, I do not agree with that. I mean, it is 
only an imminent threat if we make it an imminent threat. We 
have been talking these guys up a lot more than they deserve.
    As I said, this is a long-term movie, not a YouTube video 
or not a snapshot. A steady, sustained, powerful American 
policy can keep North Korea under control, where we have it and 
where it belongs.
    So I would not turn it into more of a crisis than it is.
    Senator Inhofe. I noticed you said, at the conclusion of 
your opening remarks--I asked them to find it so I could read 
it in its whole context, and it was not in your written 
statement--when you said you are mystified by the doom and 
gloom surrounding our policy on North Korea. I guess that kind 
of fits in with you deviating a little bit from others' 
opinion.
    Admiral Blair. Yes, sir. I think we can handle these guys, 
and we only talk ourselves into being at a disadvantage by our 
own rhetoric.
    Every time the United States is firm and strong, North 
Korea backs down and waits for another day. It happened in, 
say, 1976 with the infamous tree-chopping incident. It happened 
in 1994 with the agreed framework, when President Bush talked 
about the axis of evil and then invaded Iraq. This guy's father 
went to ground for several months.
    What was it Grant said? My job is to make the other person 
worry about what I am going to do, not to worry about what he 
is going to do. We have the high cards.
    Senator Inhofe. In spite of the fact that, at the time, the 
previous examples they are using where, at that time, North 
Korea did not have the degree of success they have had most 
recently, particularly on November 28th.
    Admiral Blair. In 1994, they did have nuclear weapons. They 
could deliver them by many unconventional means, and the North 
Koreans are specialists at unconventional means.
    The ICBM, as I said, if you want to test an ICBM fully, you 
have to be there where it lands as well as being there where it 
takes off. You have to take measurements and understand if all 
of the mechanisms for deploying the weapon work. North Korea 
will never be able to do that, so they are always going to have 
an uncertain----
    Senator Inhofe. All right. Very good.
    Before we continue on, we have a quorum right now, and I 
ask the committee to consider the nomination of John H. Gibson 
II to be chief management officer of the Department of 
Department of Defense.
    Senator Reed. So moved.
    Senator Inhofe. Second?
    Senator Rounds. Second.
    Senator Inhofe. All in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    Senator Gillibrand. No.
    Senator Inhofe. Anyone who would like to be recorded as no, 
other than Senator Gillibrand?
    [No response.]
    Senator Inhofe. Very good. Thank you.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman. This has 
been an extraordinarily thoughtful presentation by the 
witnesses. Thank you.
    A theme seems to be appearing that there is not a binary 
choice between war and diplomacy, that there are more 
compelling alternatives--containment, deterrence. I wonder, 
beginning, and I will go sort of reverse order in seating 
order, with Ms. Magsamen, if you could just comment about this 
notion of containment, deterrent, how we should posture 
ourselves? Long term, what are the keys in this approach?
    Ms. Magsamen, Thank you, Senator.
    Yes, I agree that we are likely going to find ourselves in 
a scenario of containment and deterrence, and that is not 
necessarily the worst-case scenario in this context.
    I do think, as Dr. Green mentioned, some of the ideas 
around improving our ability to contain North Korea, whether it 
is increasing intelligence-sharing, whether it is coming 
through with policy decisions that help us address the North 
Korean proliferation challenge, whether it is additional 
posture issues in terms of deterrence, I personally think it is 
important to improve conventional deterrence in the event that 
they have an ICBM capability, because it is going to be very 
valuable to our allies for us to improve conventional 
deterrence.
    So I do think that the Department of Defense, in 
particular, but also others in the interagency should be 
marking out what a long-term containment and deterrence 
strategy looks like now, so that we can put ourselves in a 
better position when we eventually get there.
    I would say that, in terms of the other options, I do think 
that while diplomacy is going to be challenging, and certainly 
we need to approach it with a great deal of skepticism, I do 
think it is important that the United States send a clear 
message that diplomacy is on the table and that the door is 
open, because, first of all, it is a necessary predicate for 
sustaining the international pressure that the administration 
has been good at pursuing in terms of North Korea.
    So at a minimum, in terms of keeping other international 
allies and partners onboard for a diplomatic approach, a 
pressure approach, or a containment approach, diplomacy on the 
table is going to be essential. I think it is really important 
for the strategic messaging around diplomacy be clear.
    It also needs to come without preconditions. I think we 
need to be realistic that any kind of engagement with North 
Korea is going to be hard, it is going to be slow, but we need 
to be persistent and clear about it.
    Then finally, I would just say, in terms of maximizing 
pressure, I do think there is more room to do more. I think 
that the administration's strategy of maximizing pressure needs 
more time to play out. I think there is certainly more that we 
can do in terms of pressuring the Chinese, and I can talk a 
little bit about that.
    But certainly, we need to have a comprehensive effort, 
whether it is diplomacy, maximizing international sanctions 
pressure, and also putting in place deterrence and containment 
pieces.
    Senator Reed. Dr. Green, could you give comments? Admiral 
Blair?
    Dr. Green. I appreciate the question, Senator. I do think 
this committee, in particular, can play an important role 
getting us into the discussion of a strategy of containment and 
deterrence. I think the current binary debate we have is not 
working.
    Setting aside for the moment whether or not a bloody nose 
or a preemptive war is a bluff or is a real plan, just in terms 
of what it is doing to us right now, it is perversely helping 
the North Koreans advance their strategy of decoupling us from 
our allies.
    If we move toward a discussion with our allies of a 
strategy of containment and deterrence, we can get their 
support for that. They are not focused on it now, because we 
are not talking to them about it now. In part, that is, I 
think, because the administration still is using the 
possibility of preventive war for leverage. But it is 
preventing us from getting into the kind of discussion we need 
to have.
    The strategy is not going to be easy, and I would like to 
emphasize that. I agree with Admiral Blair, deterrence will 
work with North Korea. They are not suicidal. No one thinks Kim 
Jong-un is suicidal.
    But deterrence with the Soviet Union was based on a fairly 
simple formula. They had 127 divisions. NATO [North Atlantic 
Treaty Organization] had about two dozen. We needed nuclear 
weapons to offset that conventional advantage, and then they 
needed nuclear weapons to offset our advantage. There was a 
certain level of stability there.
    In the North Korean case, their goal will be anything but 
stability. They will mess with us. They will threaten to 
transfer. They will use nuclear weapons as cover to do 
cyberattacks. They will use nuclear weapons as cover to do 
attacks like they did in 2010 against South Korean ships in the 
west sea. That is going to require a higher level of resources, 
intelligence, operations, sanctions.
    And so I do agree with Admiral Blair. Deterrence will work. 
But I think it is important for the committee and for the 
American people to know, this is not going to be easy. It is 
going to require a higher level of risk than we have been used 
to. But as I said in my testimony, it is a more acceptable and 
prudent level of risk than resorting, for all the reasons Kelly 
said, to an attack.
    Senator Reed. Admiral Blair, if you could, just a few 
minutes, a minute if you could, or less.
    Admiral Blair. Senator, to containment and deterrence, I 
would simply add strong economic pressure; punishment to 
provocations, if they commit them; and prying that regime open 
with information.
    Senator Reed. Thank you very much. Spoken like an admiral. 
Thank you.
    Senator Inhofe. Very good.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Dr. Green, last October, you argued in a piece that the 
United States should be preparing for a sustained period of 
deterrence, coercive diplomacy, and rollback. You believed that 
neither immediate conflict nor diplomatic resolution is 
imminent. I think you have kind of followed up on that today.
    My question is, can you describe for the committee what a 
strategy of sustained deterrence should look like, and what 
military tools should be considered to implement such a 
strategy, if a military tool is appropriate?
    Dr. Green. The broad contours of that strategy are in the 
article you referenced in ``War on the Rocks'' and in my 
testimony, and you have heard from the other witnesses 
important elements of the strategy as well.
    I think to add more granularity to what we are describing, 
we need, in my view, to be engaging in maritime interdiction 
operations. We know, for example, that the North Koreans are 
trying to get around sanctions by transferring oil from ship to 
ship, and we generally know where they are. We know that, in 
the past, North Korea has transferred capability to Syria to 
build a Yongbyon-type plutonium-based reactor. So we need to be 
stepping up pressure on Syria and Iran, by the way.
    We know that North Korea is engaged in illicit activities--
counterfeiting drugs, $100 supernotes, the Chinese renminbi and 
the Japanese yen and the euro. We need to be stepping up law 
enforcement and intelligence efforts to constrain their cash 
there.
    We, in my view, need to sustain our exercise schedule with 
Korea and Japan, so that we are, as United States Forces Korea 
put it, ready to fight tonight, and so that we demonstrate our 
readiness, both our willpower but also our capacity to 
introduce strategic assets like B-2 bombers and so forth.
    That all will elicit Chinese reactions and North Korean 
reactions, and we need to be ready for that. We need a 
consensus that we can take the heat and that we are going to 
resource our military and our intelligence services to get the 
job done.
    Senator Rounds. Thank you.
    I want to lead right into that with Admiral Blair. Admiral, 
first of all, thank you for your service.
    In your prepared remarks, you noted that the United States 
and the Republic of Korea have been less effective in 
responding to North Korean provocations below the level of a 
major attack, citing the sinking of the South Korean frigate 
the Cheonan and the DPRK [Democratic People's Republic of 
Korea] cyberattacks as examples of this shortcoming. Recent 
reporting in the Wall Street Journal noted that United States 
officials might be considering so-called bloody nose or limited 
strike options in response to North Korean nuclear ICBM tests.
    I am just curious, when we talk about limited nuclear 
responses and so forth, or limited responses on a military 
basis, do you believe that these limited strikes should be 
considered in response to North Korean provocations that fall 
below the level of a major attack? I think that is one of the 
items that Dr. Green has alluded to. How would you assess the 
risk of conducting such strikes?
    Admiral Blair. Senator, absolutely, we should not only 
consider retaliatory strikes for lower level provocations by 
North Korea, we should carry them out.
    When the Cheonan was sunk, we should have bombed the 
submarine base from which the submarine came that conducted 
that attack.
    The record, when we have responded to North Korean 
provocations, has been entirely positive. North Korea has 
backed down. They have done another provocation a few years 
later, but it has not escalated, and it has chill shocked the 
situation for a matter of months and sometimes a few years.
    So yes, I believe we should. I believe that the North 
Koreans understand that when we retaliate for an outrageous 
provocation that they conducted against us, that is connected 
to that provocation. This is not leading into a major war, 
which they know they will lose. Preemptive attacks mess up that 
barrier to escalation.
    Now, it is still a question, if we did conduct a preemptive 
limited attack, would North Korea escalate? I do not go with 
the general consensus of North Korean analysts that they 
necessarily would start an all-out war if we did a preemptive 
attack. I think it is an open question. But I think the risks 
are much smaller if we respond to a provocation.
    Let me just add a last thing. It is quite interesting, the 
provocations by Kim Jong-un's father and grandfather were 
things like special forces attacks on the Blue House, 
assassinations of South Korean cabinet officers, shootings of 
missiles, sinkings of destroyers. Kim Jong-un's provocations 
have been these missile tests within North Korea and nuclear 
tests within North Korea. Interesting. Not things that kill or 
hazard South Korean civilians, which are what really inflame 
the passions.
    So it is interesting that he has chosen these methods of 
provocation, which are, in fact, within his own country. It 
makes it more difficult to come up with an exactly 
proportionate response.
    But he will step over the line. We should shwack him. He 
will understand it. It will be good.
    Senator Rounds. Succinctly put. Thank you. Shwack him. 
Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Shaheen?
    Senator Shaheen. Thank you.
    Thank you all for being here today.
    So, Admiral Blair, why haven't we responded more robustly? 
Fear of the risk?
    Admiral Blair. It is interesting. I have been involved in 
fairly high-level discussions of this, and the discussions 
generally take the form of, ``Gosh, if we respond in a firm 
way, he will get angry and retaliate, and this thing will 
escalate.''
    What you have to understand is that when we are strong, 
North Korea backs down. It is counterintuitive, I know, because 
it is not the way you and I think. But we are talking about a 
gangster, survival regime, which is not interested in 
reputations and escalation theory. It is interested in 
surviving.
    It will poke the United States as long as it won't see a 
response. When it sees that response, it will back down and 
recalibrate.
    So I think it is just a lack of understanding of how North 
Korean despots think.
    Senator Shaheen. It is sort of the way bullies respond.
    Admiral Blair. Bingo.
    Senator Shaheen. Ms. Magsamen, you authored an article in 
November that talked about China and Russia, and what their 
response might be to any escalation of conflict on the Korean 
Peninsula. Can you describe what you think might happen?
    Ms. Magsamen, Certainly. I will start with China.
    I think the Chinese certainly have their own interests when 
it comes to long-term orientation of the peninsula, and those 
interests do not include a reunified Korea under a democratic 
South Korea. So I think we need to understand that, and they 
are very forthright about that in all of their public 
statements.
    I think the Chinese are most fearful of instability on 
their periphery, the potential for millions of refugees flowing 
across. But I also think that they are very suspicious of 
whether or not the United States would try to take advantage of 
any potential collapse scenario or any additional military 
strikes.
    So I think the Chinese would intervene, certainly. I think 
they would absolutely rush for the nuclear sites. I think that 
has serious implications for our interests.
    Now, it may be that we think that is an acceptable outcome, 
that, okay, China, you take North Korea, and we take South 
Korea. But that would have huge implications for our alliances 
with South Korea and Japan, and I think would be contrary to 
our interests.
    So I think the United States and China have, at multiple 
moments, tried to have conversations about what a long-term 
orientation on the peninsula looks like in the event of a state 
collapse in North Korea or a military action. The Chinese have 
been pretty resistant to have that conversation with us in the 
past. I think that may be changing, given the circumstances.
    But certainly, the Chinese are going to intervene. They are 
going to have their plan in place. There are reports that they 
have forces already on the border. So I think we should 
anticipate their engagement.
    Senator Shaheen. Russia?
    Ms. Magsamen, I think the Russians will continue to be the 
spoiler actor that they are in the Pacific. I do think that we 
have seen an increased tempo of Russian engagement in the Asia-
Pacific in recent years, separate and distinct from the issue 
on North Korea. So I would anticipate the Russians could easily 
try to potentially also engage in some way, especially along 
their border region.
    So it could be a military engagement. But certainly, at a 
political level, the Russians will make hay in the U.N. They 
will make hay for us, potentially, on other fronts around the 
world.
    Senator Shaheen. Apropos Admiral Blair's comments about 
understanding power, does that speak to our moving more swiftly 
to put in place the sanctions that we passed last year on 
Russia and North Korea, to show that we are serious about any 
potential action?
    Ms. Magsamen, Absolutely. I think the bipartisan sanctions 
legislation on Russia should be implemented by the 
administration, absolutely, separate and distinct from the 
issue on North Korea.
    Certainly, in China's regard, I think we have been holding 
the threat of secondary sanctions over them. I think we 
actually have to demonstrate our seriousness in that space.
    Senator Shaheen. We had people testifying before this 
committee, I think a little over a year ago, who said that the 
only way they saw China taking a more active role to deter 
North Korea was if we did increase those secondary sanctions, 
particularly on their financial industry; and second, if they 
thought a war on the Korean Peninsula was imminent. Do you 
agree with that?
    Ms. Magsamen, I would agree with that. The two things that 
China fears most are secondary sanctions and encirclement by 
the United States.
    So to Dr. Green's comments, some of the additional posture 
moves would also be useful.
    Senator Shaheen. Can I ask Dr. Green and Admiral Blair if 
you agree with both of those statements, that we should move 
forward more expeditiously on implementing the Russian 
sanctions, and that that is the only way to get China to act?
    Dr. Green?
    Dr. Green. I personally support the Russia sanctions, quite 
apart from the North Korea problem, because of the threat to 
our democratic institutions. I do not think they undermine us 
in our North Korean strategy. We need Moscow to take us 
seriously.
    I can give you concrete evidence that this is right, that 
financial sanctions, threats against China, get them to move. I 
was the senior Asia official in the NSC [National Security 
Council] 12, 13 years ago when we sanctioned a very small bank 
called Banco Delta Asia in Macao. Governor Zhou of the People's 
Bank of China was told ahead of time by our authorities, and 
the Chinese very quickly shut down North Korean bank accounts 
throughout their system, because of the risks to their banks, 
reputationally and in terms of even the prospect then of 
secondary sanctions.
    So already, the September 21st sanctions the administration 
introduced have, from what we know from public figures, caused 
year-to-year trade between China and North Korea to drop 80 
percent from January this year to January a year ago. There are 
estimates from the South Korean Government that about 60 
percent of North Korea's currency reserves are going to go away 
this year.
    The sanctions work, and they are most effective when they 
get the Chinese to police their own banks, their own companies.
    The Hwasong-15 missile, as you may know, is on a nine-axle 
TEL, a giant chassis that the Chinese built for logging, that 
showed up in a military parade for the world to see in North 
Korea.
    So, yes, the sanctions will be effective.
    Our alliances are critical, if I can quickly emphasize that 
point again. The Chinese assumption long term, I believe, and 
you can hear it clearly in speeches by Xi Jinping and other 
leaders, is that United States alliances in Asia will wither as 
Chinese economic power grows. If Beijing thinks that, there is 
little incentive for them to pressure North Korea now. Why not 
wait until they have a situation 10, 20, 30 years down the 
road, where they have maximum leverage on both Koreas?
    If we want them to act, we have to show our alliances are 
strong, which means we have to do a lot of things: get an 
Ambassador in Seoul, get serious about a joint strategy with 
our allies, and so forth.
    Senator Shaheen. Thank you. I am out of time, but just 
quickly, Admiral Blair, do you agree with that?
    Admiral Blair. I have talked with many Chinese leaders 
about North Korea. After a few Moutais, they say, ``Admiral, 
tell you what, we will make a deal. You give us Taiwan, we will 
give you North Korea.''
    There is no love lost within China for North Korea. There 
is also an agreement of interest. The United States and China 
could easily agree on a unified Korean Peninsula which was 
under South Korean rule, had no nuclear weapons, and which 
American forces stayed to the south, Camp Humphreys in the 
South, the way they now are.
    That is a good deal for China. It is a good deal the United 
States. It is a good deal for the Republic of Korea. It is a 
good deal for the North Korean people.
    However, China doesn't see a clear path to get there. They 
think that pushing the North Korean regime too hard would 
result in chaos, which would be bad for them for all sorts of 
reasons. They think the Unites States might take advantage of 
it and not stick to our side of the deal.
    But recently, I have heard from Chinese officials a little 
more willingness to think about these things, a little more 
willingness to think about the end of North Korea. I think we 
should continue to press that kind of discussion with them.
    Senator Shaheen. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Inhofe. Thank you.
    Senator Rounds is presiding, and we recognize Senator 
Perdue.
    Senator Perdue. Admiral Blair, Admiral Harris before this 
committee on a number of occasions has said that he is getting 
a very small percentage of intelligence requests that he 
continues to make. One of the concerns that he has voiced is 
the potential for miscalculation on the Korean Peninsula.
    Do you agree with that assessment? What should we be doing 
right now to make sure we have all the intel we need, ISR 
[Intelligence, Surveillance, Reconnaissance] and so forth, to 
make good, solid planning decisions for North Korea?
    Admiral Blair. Senator, I am not going to second-guess 
somebody who has the job that I used to have, so you will have 
to press Admiral Harris on that, probably in closed session.
    Senator Perdue. I will be happy to do that. Thank you.
    Dr. Green, we have talked about Russia a number of times, 
but Secretary Tillerson just earlier this month, actually, in a 
speech said that it is apparent to us that Russia is not 
implementing all the sanctions and there is some evidence that 
they may be frustrating some of the sanctions.
    Reuters just last week, actually, revealed that there is 
transshipping. Shipping of coal going to Russia is being 
transshipped to places like Japan and South Korea, of all 
places.
    What can we do to ensure that Russia is not frustrating our 
efforts? Then secondarily, what can we do to help bring Russia 
into a constructive conversation around this sanction 
implementation?
    Dr. Green. It is an excellent question, Senator. For all 
the difficulties we are having with Moscow, I would not paint 
them as 100 percent against our strategy on North Korea.
    For example, in my own experience working this problem in 
government a decade ago, the Russians take the nuclear piece of 
this very seriously. If we were to have instability and 
collapse or, somewhere down the road, a diplomatic agreement 
for nuclear disarmament, Russia's role would be critical. We 
would want to get fissile material out. Russia has experience 
immobilizing nuclear weapons, and so on and so forth. There is 
a potential role for Russia.
    I also have the impression that, in the Security Council, 
the Russians are less obstructionist than they were. It is a 
slight improvement. However, as you point out, in the actual 
implementations of sanctions, the Russians are backfilling. The 
Chinese will complain officially, if you ask, that the Russians 
are moving in and providing cash through a variety of means to 
backfill for China, and they are doing it to have influence. 
They want strategic influence with us and our allies. I think 
their view--this was my experience in negotiating with the 
Russians in government--their view is, if they have the best 
relationship with Pyongyang of any of us, they will hold all 
the cards diplomatically. We need to disabuse them of that, and 
there have to be some consequences to them for the way they are 
helping North Korea get around sanctions, even in cases where 
China is implementing them and Russia is backfilling.
    Senator Perdue. Thank you.
    Admiral Blair, you made a comment earlier I happen to 
strongly agree with, and that is that we have not seriously 
implemented sanctions on North Korea. They are actually the 
fourth most sanctioned country in the world right now, behind 
Russia, Syria, and Iran.
    What should we do to up that ante? All three of you are 
talking about that as a possible deterrent, but be specific, 
particularly with regard to China, in terms of how we can up 
the pressure on North Korea relative to the sanction regime.
    Admiral Blair. Senator, I think the other countries of the 
world dealing with North Korea fall under two categories, those 
which are shameable and, if we simply bring it to their 
attention that their currencies are being counterfeited, North 
Korean workers in their countries are sending money back home 
and forming potential assassin squads within their countries, 
they will do something about it, they just haven't done it 
because it is a high priority----
    Senator Perdue. You are talking about the exported labor 
from North Korea?
    Admiral Blair. I am talking about Malaysia and the thousand 
workers who were there. I am talking about countries in the 
Middle East that use imported North Korean laborers for their 
own purposes. Those countries, I think, if we go to the 
intelligence effort to identify all of that, then our 
Ambassador walks in, tells them, ``Listen, take of care of 
this.'' ``Oh, okay, we will do it.'' Then we just follow up. So 
that is one category.
    Then there is the other category, like China and Russia, 
who try to calibrate their support to North Korea to keep the 
survival systems alive but not enough to be accused of 
violating sanctions. Those are the ones that Dr. Green was 
talking about that we have to go in with very specific 
information with sanctions on those Chinese or Russian 
companies which are conducting this, which will prevent them 
from using our banking and financial system, which has been 
very effective in the past, or for snapping their garters in 
other ways that we can do quietly, and that is more effective.
    Public shaming for them has some effect, but, generally, it 
is a badge of courage there in China and Russia to be 
criticized by the United States, so we have to play that pretty 
carefully. But that is done by smiling and then jabbing them 
with the stiletto.
    So it is a complicated diplomatic effort. It is a very 
complicated intelligence effort. We just have to get organized 
as we have for other important things and do it and sustain it. 
That will have the desired effect.
    As I said in my written testimony, in the mid-1990s, when 
the Soviet Union fell apart and their explicit subsidies to 
North Korea ended, the overall inputs, the external trade 
coming into North Korea, dropped by 50 percent, roughly. The 
result was mass starvation, complete collapse of the economy, 
and North Korea had to completely recalibrate its policies.
    So they are affected by outside pressure. They stabilized 
their economy recently. They have managed, by both illegal 
means and by countries that are willing to keep them on life 
support, to get a fairly decent flow of what they need from the 
outside. We need to end that, and they will react.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. [Presiding.] On behalf of the chairman, 
Senator Gillibrand?
    Senator Gillibrand. Thank you.
    While our President is cutting our State Department and 
USAID [United States Agency for International Development] 
budgets, and, unfortunately, too often alienating or sending 
mixed signals to our allies, China is actively forming 
relationships and seeking influence around the world at an 
unprecedented level.
    My first question is, how has the standing, credibility, 
and perception of the United States changed since President 
Trump took office? Have these changes affected our ability to 
address the threat of North Korea?
    Starting with Ms. Magsamen.
    Ms. Magsamen, I would say, essentially, in terms of the 
question of standing, I think the most important thing for our 
alliance relationships is steadiness and clarity. I think that 
is where, unfortunately, the administration has suffered from 
some strategic incoherence, in terms of what our relationships 
with our alliances should be. And so, in that sense, it is a 
messaging issue.
    Again, we have already talked about the fact that we do not 
have an Ambassador in South Korea. That significantly hobbles 
our ability to engage with our allies, and it is really 
important that we get one immediately.
    I would say, if the United States is serious about 
diplomacy with North Korea, as Secretary Mattis has called it, 
the first line of effort, if we are serious in that regard, I 
do think that we need some sort of senior envoy from the White 
House with the credibility and backing of the President who is 
able to engage on a full-time basis on this problem set, 
because, unfortunately, I think there are a lot of doubts, both 
on the North Korean side but also on amongst our allies about 
what our long-term play is and where we are actually trying to 
land this.
    Allies like Japan may not be able to publicly say some of 
these things, because they are very intensely interested in 
staying as closely aligned with the United States as possible, 
but I do think that there is a significant amount of 
questioning going on about our ability to follow through on 
diplomacy and the potential for war.
    So I think, first and foremost, is steadiness, strategic 
messaging, not taking own goals, especially giving North Korea 
and China options to split us from our allies. I think we have 
done that a couple of times over the last year, and I think 
that deeply wounds us and wounds our strategy.
    So that would be how I would respond.
    Senator Gillibrand. Dr. Green?
    Dr. Green. So the administration's free and open Indo-
Pacific strategy was literally taken word for word from the 
Japanese Foreign Ministry and elevates the importance of India 
and Australia. In concrete form, you can see it, because those 
four countries--the United States, Japan, India, and 
Australia--have convened a so-called Quad officials meeting to 
coordinate, essentially, on China. For a long time, they 
weren't willing to do it, because they were worried about 
China's reaction.
    So you can see in different ways that the larger, more 
confident democratic maritime allies--Japan, Australia, and 
India--at least at the government level are moving closer to us 
right now.
    On the other hand, in Southeast Asia, I think almost any 
expert you ask, and I have traveled to the region, to Southeast 
Asia, several times this last year, will tell you we have lost 
ground. We have lost ground because of our withdrawal from TPP 
[Trans-Pacific Partnership]. We have lost ground because our 
diplomats are not empowered.
    The President spent 12 days in Asia, and Secretary Mattis 
has made more trips to Southeast Asia in his first year than 
any of his predecessors. But the maintenance of our 
relationship with the 10 members of ASEAN [Association of 
Southeast Asian Nations], Thailand, Malaysia, and so forth, 
that is done by the State Department. It is not done by the 
White House. I can say that as a former White House guy. If you 
do not have a confirmed Assistant Secretary, if you do not have 
a clear strategy for your diplomats, if you do not have a trade 
strategy, they have nothing to work with.
    You can just feel it in the region, that we have lost in 
that critical part of Asia. We can recover. The bigger maritime 
powers are with us. But we have lost ground.
    Korea is the one that worries me the most, because it is 
the center of gravity. If China has a long-term strategy to 
weaken our alliances, if they can get Korea separated from us, 
I do not think they can, but if they think they can, it is 
going to weaken our leverage on North Korea. It is going to 
weaken our leverage on a whole range of issues.
    It is about getting an Ambassador in Seoul. It is about 
stopping the gratuitous attacks on the Korea Free Trade 
Agreement. We can renegotiate it, but let's keep it steady.
    Senator Gillibrand. Admiral Blair?
    Admiral Blair. Basically, Senator Gillibrand, I would agree 
with Dr. Green.
    Asians are not obsessed with tweets. They look in a very 
clear-eyed way at what the United States does. The actions that 
we have generally taken in terms of overall policy, military 
actions, and so on are favored by our allies and are noticed by 
our adversaries and others.
    I would say the two areas of stepping back from 
multilateral trade agreements and not having this substantive 
working-level diplomatic presence are our two biggest 
weaknesses in terms of the actions, and those are noted by the 
Asian countries.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. On behalf of the chairman, Senator 
Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you to the witnesses for your testimony. I 
particularly want to thank Dr. Green and congratulate him on 
his recent book, ``By More Than Providence.'' Anyone interested 
in a great treatise on American strategy in the Asia-Pacific 
should read it. I am still reading it. It is pretty long, but 
it is a great book.
    I want to dig into this binary debate topic that we have 
been discussing. I think it has been incredibly useful. The 
administration is essentially--I am not sure they have called 
it a red line. We have had Senators here in committee hearings 
on this committee call it a red line. They have essentially 
said we are going to prevent North Korea to have the capability 
to have an intercontinental nuclear ballistic missile that can 
range the lower 48, the continental United States. As we have 
all heard and seen, and intel reports have been made public, a 
lot of people think that red line is maybe even here already or 
very close, within the year.
    So this binary debate has started about, to make sure we do 
not let them cross that red line, we either need to undertake a 
preemptive or preventative military action, which, by the way, 
I believe the Congress of the United States would have to 
authorize. It is not the President's call to do that under our 
Constitution. Or there has to be, as we have been discussing 
here, some kind of sustained serious containment and 
deterrence.
    Dr. Henry Kissinger weighed in on this kind of binary 
choice, a fork in the road, as some senior officials have 
called it. He said there were rational arguments on the 
preemptive war part, but he had concerns about going it alone.
    Then Secretary Tillerson has weighed in on the other 
element, particularly a sustained containment and deterrence 
strategy, because of the risk of proliferation, where he said 
that is not going to work.
    So what I would like, Dr. Green, first, you have thought 
about this a lot, a containment and deterrence strategy would 
obviously have to have some continuum of the use of force to be 
effective. So let me give you just a couple examples and see 
where you would fall in a containment and deterrence strategy. 
I think all the panelists agree a much more robust sanctions 
effort should be part of that.
    How about a naval blockade that was authorized by the U.N.? 
Assume you could get that authorization. Would that be part of 
something?
    Dr. Green. Thanks, Senator. There will be a quiz on the 
book in the next open hearing. But first, on this binary 
choice, it is an important point because, for 25 years, 
Republican and Democratic administrations have faced repeated 
crises with North Korea. The North Koreans have been able to 
hit our bases and allies in Japan and Korea for over a decade. 
In other words, this is not a----
    Senator Sullivan. With a nuclear weapon?
    Dr. Green. Probably, probably. In other words, I think we 
are all saying the same thing. This is not a sort of black and 
white shift in the threat. This is a more significant and more 
dangerous level, but the threat has been mounting for some 
time.
    The way both Democratic and Republican administrations have 
generally dealt with this, since George Herbert Walker Bush, is 
to increase pressure, not want war, and then toggle over to 
diplomacy and release the pressure. Every administration has 
done that, because war is so unthinkable.
    We have to have the discipline now to not continue this 
cycle of toggling from war to diplomacy, but to sustain a 
deterrence strategy that constrains their program, that, as 
Admiral Blair has said, deters them from thinking they can get 
away with small attacks in cyberspace or on South Korean ships.
    So as part of that strategy, whether you call it a naval 
blockade or not, I do think we need to engage in maritime 
interdiction operations against North Korean ships that are, 
for example, refueling at sea in violation of Security Council 
sanctions.
    Senator Sullivan. Okay, let me ask you a couple other 
elements of what that deterrence and containment strategy might 
look like.
    How about using all means to disrupt their proliferation 
networks, including overtly or covertly killing those involved 
in the networks? If there was clear and convincing evidence of 
a facility that helped proliferate weapons, nuclear weapons, 
that we would bomb that?
    Again, this is not a preemptive or preventative war, but if 
we have a serious containment and deterrence strategy, it would 
have to have some elements of force to be credible, and 
particularly to be able to be credible on the issue that 
Secretary Tillerson says is his reason for not wanting a 
containment and deterrence strategy, and that is proliferation.
    How do you deal with containment and deterrence with a real 
threat of nuclear proliferation, which this country clearly has 
done in the past and will try to do so in the future? Shouldn't 
we have force as an element of that part of the strategy? For 
both of you.
    Dr. Green. The answer is yes. I think we need a more 
aggressive interdiction strategy.
    Senator Sullivan. Would our allies and Russia and China 
agree with that, if we said this is the strategy?
    Dr. Green. If we create the conditions where there are 
consequences for them not to cooperate, for example, secondary 
sanctions, then I think they will be more cooperative. We have 
seen that in the past.
    In terms of striking facilities, as Admiral Blair pointed 
out earlier--if I have this correctly, Admiral--it is going to 
be difficult for North Korea to distinguish between a 
preventive attack on a facility and the opening of a campaign 
to destroy the regime. So the risk, to me, would be too high.
    But interdicting outside of North Korea against North 
Koreans proliferating but also those who are cooperating, I 
think it needs to be much more aggressive. It needs to be 
resourced with intelligence of all means and should be part of 
the strategy.
    Senator Sullivan. Admiral Blair, do you have any comments? 
Sorry, I have gone over my time.
    Admiral Blair. I would generally agree with the thrust of 
your questions, that an aggressive set of responses to 
proliferation activities by North Korea, including the use of 
deadly force and military strikes on relevant North Korean 
facilities, should be a part of that response.
    It is hard to go through this a la carte menu in a 
theoretical dinner in a few years and just pick off individual 
items. It really depends on what is going on at the time.
    But in response to a clear proliferation provocation by 
North Korea, strikes against relevant facilities or units in 
North Korea should be a part of that.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. On behalf of the chairman, Senator Hirono?
    Senator Hirono. Thank you.
    Admiral Blair, aloha. It is good to see you. I certainly 
remember working with you closely when you were at Pacific 
Command.
    You have said, Admiral Blair, that North Korea is not an 
imminent threat. If we define ``imminent threat'' as sending a 
missile against us or any of our allies, is that a pretty good 
definition of ``imminent threat,'' in a very simplified way, 
and that North Korea, therefore, is not an imminent threat?
    Admiral Blair. I did notice, Senator, that this red line 
about the lower 48 provided cold comfort to those American 
citizens living in places like Hawaii and Guam and so on. So we 
feel these things stronger, those of us who have lived in 
Hawaii or who do now.
    We get into fine debating points with adjectives and so on. 
North Korea has been a threat to American interests ever since 
the end of the Korean--unexpected things happen. North Korea 
has been a threat ever since the Korean War. They are very 
adept and have the penchant for using unconventional forms of 
aggression against this country. In that sense, they are sort 
of a running threat.
    But to say that there is some sort of a cliff that we are 
approaching I think mischaracterizes it. I would agree with Dr. 
Green that we are seeing an increasing threat, but not 
something that is defined and imminent in time.
    Senator Hirono. Would you agree with that, Ms. Magsamen?
    Ms. Magsamen, Yes, I would agree with Admiral Blair's 
comments. Also, I think the word ``imminent'' sort of implies a 
sense of intent on behalf of the adversary. Again, I think if 
you are thinking about whether or not Kim Jong-un intends to 
actively first strike the United States, I think there are open 
questions about that. So I would agree with Admiral Blair's 
comments.
    Senator Hirono. That doesn't mean, just because North Korea 
is not an imminent threat, that we should not be doing the 
variety of responses and actions that all three of you have 
laid out in your testimony. I think this binary discussion we 
are having, which means do we use either military force or do 
we use diplomacy, I agree with all of you, I think, if this is 
what you are saying, that we should not confine ourselves to an 
either/or situation because it is all very complicated 
diplomatically, as well as from an intelligence standpoint, as 
Admiral Blair has pointed out.
    At the least, shouldn't we have an Ambassador to South 
Korea with the necessary experience, at this point?
    Ms. Magsamen, Yes.
    Admiral Blair. Yes, Senator. The line of American 
Ambassadors of all administrations to that country have been 
very distinguished, fine public servants, and they have played 
absolutely crucial roles at key times during crises. We need to 
have that strong voice there.
    Senator Hirono. It is very mystifying as to why this 
administration has not named someone as an Ambassador to South 
Korea, because North Korea remains so much on everyone's minds.
    Admiral Blair, in your testimony, you recommend that the 
United States should respond promptly and disproportionately to 
North Korean provocations. So can you explain what you mean by 
disproportionate response to their missile tests and nuclear 
tests?
    Admiral Blair. Right. In order to make a retaliation to 
provocation effective and terminal, you should not be in a tit 
for tat of they poke you and you poke them a little bit. When 
they poke you, you should poke them a lot more than they were 
poking you. So if they sink one ship, you should sink three. If 
they fire ten artillery shells, you should fire 50.
    That is what I mean by disproportionate. We need to respond 
in kind with relevant military strikes, but they should be 
stronger than the ones that were directed against our allies.
    Senator Hirono. You made a note that Kim Jong-un's 
grandfather and father both did very specific things, such as 
sinking ships and assassinating people. What Kim Jong-un is 
doing, as you noted, is a little bit more difficult to define 
as being the kind of provocation that should lead us toward any 
kind of a military disproportionate, as you would say, 
response.
    So I think that is what makes things so complicated, 
because what we could unleash with even a bloody nose kind of 
response would need to be very much analyzed as to what the 
possibilities might be, but still retaining the capability to 
respond militarily.
    I am out of time. Thank you.
    Senator Inhofe. [Presiding.] Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Dr. Green, I want to return to the exchange you had with 
Senator Sullivan, speaking about the escalation ladder and 
where there might be a way to step off the escalation ladder, 
if North Korea engaged in a provocation that warranted a 
military strike against North Korea by the United States.
    My understanding of your position is that, in part due the 
size of their unconventional weapons systems on the DMZ and the 
number of those systems that can range Seoul, that there are 
not a lot of easy off-ramps on the escalation ladder. Is that 
right?
    Dr. Green. Thank you, Senator. I am glad you did return to 
the question raised by Senator Sullivan, because I think I need 
to add more clarity.
    In a scenario where there is actionable intelligence that 
North Korea is going to proliferate, I think there is a legal 
and a strategic case for preemption against a facility, even 
North Korea. Or in retaliation for known proliferation, I think 
there is arguably a case, a harder case, but arguably a case, 
under international law and strategically for using military 
force.
    I think the legal case is flimsier, and the strategic case 
is weaker, if you are talking about using military force to 
stop their program.
    So the reason it is worth taking the risk to retaliate, as 
Admiral Blair was describing it, in my view, is because if we 
do not, the North Koreans will continue increasing the level of 
the threat. Then our options are getting worse and worse.
    That is why I said earlier in my testimony, this new 
containment strategy will involve a higher level of risk for 
us, but it is to prevent us having to take even riskier choices 
down the road, but not for preventive war. I think that is a 
much harder case.
    Senator Cotton. If you had to take that step, given their 
nuclear weapons program, given their indirect fire systems on 
the DMZ, it is unclear how Kim Jong-un would assess those 
strikes versus, say, what Ronald Reagan did in Libya in 1986, 
what Bill Clinton did in Iraq in 1998 that had very clear and 
limited objectives that Muammar Qaddafi or Saddam Hussein did 
not see as regime-decapitating strikes. Is that right?
    Dr. Green. That is right. So my understanding is that, 
after the 2010 attacks by North Korea against South Korea, the 
ROK and the United States agreed on new guidelines, on new 
planning parameters, for counter-provocation that would involve 
moving up one echelon. They hit us with a battery; we hit the 
headquarters in the brigade.
    The North Koreans backed off, because they knew it was a 
limited context, and it was not a preamble to invasion or 
regime change. That is easier--not easy, but easier--to manage, 
in term of escalation.
    Senator Cotton. What might be intended as a limited or 
retaliatory strike might be perceived as an effort to go for 
the jugular.
    Dr. Green. The North Koreans know these rules of 
engagement, and they backed off. I think if our rules of 
engagement are understood, then we face less of a risk of 
escalation.
    There are scenarios where the U.S. and our allies would 
have no choice but to go to that complete regime change 
scenario, depending on what we are managing with at the time. 
Right now, I do not see that warranted, in terms of the 
enormous risk we have described.
    Senator Cotton. Okay. Admiral Blair, given that context 
that has prevailed in the Korean Peninsula for some time, and 
the motto of United States Forces Korea, ``Ready to fight 
tonight,'' we have about 250,000 American citizens on the 
Korean Peninsula. A lot of those are private citizens. Many of 
them are military personnel, but many of them are dependents, 
husbands and wives, and kids of those military personnel, plus 
our diplomatic personnel.
    Would it be prudent, given the heightened tensions, to 
begin to consider stopping the deployment of dependents of 
United States Government officials and military personnel on 
the Korean Peninsula?
    Admiral Blair. Stopping that right now, in view of the 
current level of tensions, are you asking, Senator?
    Senator Cotton. Yes. So obviously, it would be a huge 
evacuation effort to get all of the dependents out of Korea, 
even if you wanted to do that today. But would it be prudent to 
say to servicemembers, starting in 30 days, Korea will once 
again be an unaccompanied tour and not an accompanied tour, so 
we do not continue adding to the risk that we are posing to our 
families and also the leverage that we might be giving to the 
Kim regime?
    Admiral Blair. I would not favor that under current 
circumstances right now, Senator. It sort of ties in with this 
discussion of imminent threat that we have been having earlier 
in this hearing.
    We have had both military members and their families there 
for a long time. We have a war plan, which we have confidence 
in. We have nuclear deterrents, which we have confidence in. We 
think we can handle it.
    If the circumstances changed radically, then, as you know, 
evacuating all of our citizens is a part of our preparations to 
do that. But I do not think we have crossed that trigger yet.
    Senator Cotton. Okay, thank you. My time has expired.
    Senator Inhofe. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chair.
    There has been a relatively high amount of unanimity from 
all of you in terms of what sort of approach we should be 
taking. Is it fair to say for each of you that there is an 
enormous difference in relative risk, regarding escalation, 
between something that would be retaliation for bad North 
Korean behavior versus something that would be preemptive? Do 
you all agree on that point?
    Admiral Blair. I strongly do. Yes, sir.
    Dr. Green. I agree as well.
    Ms. Magsamen, I do as well.
    Senator Heinrich. Do you also agree that our first priority 
here in getting this right, especially for the long term, 
should be having a unified strategy with our allies in the 
region?
    Admiral Blair. The worst mistake we could make is to come 
out of this dance without the girl who brung us. The basis of 
our long-term influence and strong policy in the region are our 
two alliances with Japan and North Korea, and we should 
evaluate all our actions.
    Senator Heinrich. South Korea.
    Admiral Blair. Excuse me. Yes, sir. Brain cells, senior 
moments.
    We should evaluate all of our actions in that light. That 
doesn't mean we do everything they want to do. This is a give-
and-take alliance. But over the long term, we want to come out 
of this with stronger alliances than we went in.
    Senator Heinrich. Dr. Green?
    Dr. Green. I agree the current South Korean Government has 
elements within it that are a little too hopeful about the 
prospects for diplomacy with North Korea. So as Admiral Blair 
said, we do not have to do exactly what our allies say, but we 
have to get it right, not only because we want to come out of 
this with strong alliances, but our leverage vis-a-vis North 
Korea or other actors like China depends, to a very large 
degree, on how solid they see our alliance relationships.
    Ms. Magsamen, I would agree that alliances are essential to 
a successful American strategy in the Pacific, so absolutely.
    Senator Heinrich. Would we be in a better position to 
create that sort of unified strategy with our allies if we had 
a sitting Ambassador to South Korea right now?
    Dr. Green. We would, not only because of the necessity of 
clarifying signals from Washington to Seoul, but because an 
Ambassador in Seoul could play a critical role with our 
Ambassador, our very excellent Ambassador in Japan, and, of 
course, also China, in knitting up our allies and other 
players. A lot of the diplomacy happens out there, and we have 
a missing piece in the puzzle.
    Senator Heinrich. Obviously, one of the things we want to 
do is send that message of steadiness and clarity to our 
allies, but also to North Korea. When you see things like the 
recent tweet from the President about a much bigger and more 
powerful nuclear button, obviously, that was designed to be 
heard by the North Korean regime, but what does it send in 
regard to a message to our allies in the region? What do they 
think when they see that kind of action coming out of the White 
House?
    Admiral Blair. Senator, I do not think things like have 
that big an effect on our allies. They look at what we do, at 
sustained, official, long-term policies. I would say they are 
less obsessed with tweets than others are.
    Dr. Green. I think our allies are discounting the tweets. 
In one sense, that is good. In another sense, it is not good, 
because you want the bully pulpit to have some weight.
    But in general, I do not think it is the problem. I think 
the problem with our alliances right now is that the talk of a 
bloody nose or preventive war is focusing allies that should be 
working with us on pressuring North Korea on finding ways to 
slow us down. We want to redirect them on the real problem.
    Ms. Magsamen, I guess I disagree somewhat. I think that our 
allies are looking at the disconnect between what the White 
House says and what our Cabinet officials say. And so I do 
think that when they see a delta there, that they do have a lot 
of confusion about what our long-term sort of intentions are. 
So I guess I would disagree.
    I agree that our alliances are durable, and certainly 
tweets are not going to make the ultimate difference. But I do 
think that they are having an impact in terms of how our allies 
perceive our policy.
    Senator Heinrich. To finish up, I want to return to the 
Russian issue that Senator Perdue brought up. There has been a 
lot of reporting about North Korea, effectively Russia's ports 
becoming a transshipping hub for North Korean coal. There has 
been a lot of reporting about oil moving into North Korea from 
Russia and dropping the price of fuel oil. They seem to be an 
enormous economic release valve.
    That all comes at the same time that the Congress voted 
517-to-5 to give more sanctions tools to the administration to 
deal with Russia, and yet we do not see a willingness to impose 
those sanctions.
    What do you think the Russian administration thinks when 
they see us choose not to impose those sanctions?
    Ms. Magsamen, I think it sends a signal, and also, I think 
the Russians will exploit any possible opening for themselves. 
So I think as the Chinese crack down, the Russians certainly 
want to move in for business with North Korea, so that is 
something we have to watch.
    But separate and distinct from the North Korea piece, 
absolutely, if the Russians do not see us following through on 
our sanctions, I think that just induces further bad Russian 
behavior.
    Senator Inhofe. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you to our witnesses for being here today and 
discussing a very important topic to all of us.
    Admiral Blair, I would like to start with you, sir. Many 
years ago, I was very fortunate to have the opportunity to 
attend an agricultural exchange in Ukraine while it was still 
part of the Soviet Union. During that time, the other Iowa 
students and I lived on a collective farm for a number of 
weeks.
    In the evening, we would come together as a community, and 
we thought we would be talking about agriculture, Ukrainian 
agriculture versus what I grew up with in Iowa. We did not talk 
about agriculture at all. What we talked about and the 
questions that were being posed to us from the Ukrainians was, 
what is it like to be free? What is it like to be an American? 
Tell us about democracy. Talk to us about your form of republic 
and government. Those were the things that we discussed.
    In your opening statement, you note the need to strengthen 
the information campaign in North Korea as the government 
maintains control over its people and restricts their access to 
the outside world. So how can the United States and our 
regional partners work to expand access to freedoms like news 
and television and technology inside of North Korea?
    Admiral Blair. I think that is a very important point, 
Senator, and I think your observations are exactly correct, 
that the greatest long-term threat to despotic regimes is 
information and dissatisfaction by their citizens.
    The one that we all laugh a little bit about, we all have 
plaques on our walls with a little balloon that North Korea 
uses to send propaganda over to the South, and the South, when 
the wind blows from the south, has, over the years, sent 
balloons with little transistor radios and other publications 
to try to spread news in North Korea and undermine the 
Democratic Republic of North Korea, just the way you say.
    But we are in the information age in 2018 now, and I think 
we can do a lot more. As I mentioned, Chinese cell towers 
splatter into North Korea. We can use satellite broadcasts to 
be able to send texts that provide more information.
    There is a huge counterfeit or smuggling trade that goes 
back and forth over North Korean borders. We can put thumb 
drives and disks into that. We can physically get other items 
in there. I think we should do that, we, the Koreans, all of 
our friends, and just begin to let North Koreans know what the 
situation is in the rest of the world and let them draw their 
own conclusions.
    Senator Ernst. Thank you, Admiral. I do truly believe that, 
if we want to see dissatisfaction in North Korea, we have to 
push our ideals and values into that country through whatever 
means. We have seen other countries--we talk about Russia and 
its propaganda--campaign in other countries. Why isn't it that 
we can engage in that same type of activity with North Korea?
    You are right about the illicit trade that goes on. I have 
heard they love American soap operas and so forth.
    So anyway, if there is a way that we can engage in that, I 
think we should engage in that. If it saves bullets and lives, 
certainly, let's do it.
    Another issue, Dr. Green, just in my remaining time, we 
have talked about this before, but the importance of trade in 
that region, and if you could just explain, from your point of 
view, do you believe that the U.S. needs to reengage with those 
Pacific nations, especially at a time now that we are not 
involved in TPP [Trans-Pacific Partnership]? What should we be 
doing? How can that help the overall situation?
    Dr. Green. As you know well, Senator, the consequences of 
our leaving TPP are that our trading partners are signing 
agreements with each other, with Europe, that are freezing out 
our exporters, especially our exporters from agricultural 
States. It is costing us, and it is going to cost us more as 
these new trade agreements we are not in take effect.
    On a geopolitical basis, the impression in the region is 
that the United States is abdicating leadership on what kind of 
rules will govern trade and investment. I was, in the Bush 
administration, part of the small group that contemplated 
whether or not we should do a free trade agreement with the 
Republic of Korea, which, of course, we did. One of the main 
reasons we decided we needed to do it was to demonstrate 
clearly that our fate and our ally South Korea's fate were 
going to be tied together for generations by greater economic 
interdependence and cooperation.
    The fact that we are now putting that on the chopping 
block, aside from the damaging effect on our agricultural 
exports, is that it is going to raise questions about whether 
we are truly committed in the long run to the Republic of 
Korea, and the same could be said for TPP with those states. 
China is filling that vacuum with Belt and Road and other 
things. You can debate how much is really there, but the sense 
of momentum right now is clearly with Beijing.
    This all effects how we manage the North Korean problem, 
because if the Chinese think, in the long run, they will have 
the dominant position over the entire region, they are not 
going to take risks now to help us.
    So it does affect the North Korea problem indirectly, but 
importantly.
    Senator Ernst. Very good. Thank you. We need to engage.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you all for being here today. I want to talk more 
about our alliances in the region.
    Our allies in Asia rely on the United States nuclear 
umbrella for their security. We promise to treat an attack on 
Seoul or Tokyo as an attack on our homeland, and their belief 
in our extended deterrence is one reason that countries like 
South Korea and Japan do not seek nuclear weapons of their own 
and one reason there is not an arms race in the region.
    By developing a long-range nuclear capability, North Korea 
is trying to convince our allies that the United States will 
not protect them, leaving them open to Kim Jong-un's bullying 
and intimidation.
    So let me ask this, Ms. Magsamen, what actions should the 
administration be taking to keep North Korea from driving a 
wedge between the United States and its allies?
    Ms. Magsamen, Thank you, Senator. I think that is a very 
important question.
    The relationship between Japan and Korea has actually been 
deteriorating recently, and I think one the most important 
things that----
    Senator Warren. It has never been easy.
    Ms. Magsamen, It has never been easy, a long history, but 
it really requires American leadership and effort with both of 
our allies to bring them closer together. So I think one the 
most important things the U.S. can do is try to improve that 
political relationship between the two countries. Frankly, that 
is going to require presidential-level leadership, in addition 
to agencies and departments engaging those two powers.
    So I think that is sort of one piece of it. The other piece 
you alluded to was the extended deterrence commitment. I think 
there we can certainly do some more strengthening. We have an 
extended deterrence dialogue with those countries, and I think, 
certainly, we should look at deepening those and potentially 
having them more regularly and throughout the year.
    Finally is trilateral cooperation. I think demonstrating to 
North Korea and, by extension, to the Chinese, frankly, that 
the North Korea problem is driving us closer to each other 
operationally in the Pacific I think is essential in that 
space.
    Senator Warren. Actually, let me drill down just a little 
bit more on that. As you rightly say, it is no secret that 
South Korea and Japan have a very complicated history, dating 
back for many years, and that the United States has 
traditionally played a role in trying to keep the three of us 
together in the region. Can you just say a word more about what 
you think the United States should be doing in order to 
preserve that three-part relationship, particularly focusing on 
the part between South Korea and Japan, if you could?
    Ms. Magsamen, Sure, I think it is going to require actual 
just getting them in a room together on a consistent basis at a 
high level, and that is going to require some sort of 
presidential engagement.
    In the Obama administration, we had a series of trilateral 
summits. Of course, that was a different South Korean 
Government at the time, but I think that kind of almost retail 
politics engagement at a senior level is going to be essential 
in terms of improving the relationship, finding ways to put out 
ideas for confidence-building measures, active diplomacy.
    Again, it would be great to have an Ambassador in South 
Korea in place to work with his counterpart in Tokyo, as Dr. 
Green alluded to. So even just day-to-day engagement in both 
capitals by our Ambassadors would be essential.
    Senator Warren. Thank you. I think that is very important. 
I want to loop back to the point I had started with, though, 
here.
    During the Cold War, we succeeded in convincing the Soviet 
Union that our extended nuclear deterrence was credible, that 
we, the United States, would defend NATO, if attacked. It is 
the same principle that applies here. Our network of partners 
in the region is one of our unique strengths, but it is only 
our strength if it is credible and if they believe it.
    So I think everything we do to reinforce that is critically 
important, and I think Kim Jong-un knows that. I think the 
Chinese know that, and everything they can do to try to 
undermine that helps their interests and hurts ours.
    So I appreciate your thoughts on this, and I just want to 
underline how important I think it is going forward. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to our witnesses today. It is a fascinating 
discussion.
    I want to get back to the bloody nose strategy. We have had 
quite an extensive conversation about that already with the 
panel.
    But, Ms. Magsamen, I would like to just ask you about Kim 
Jong-un's response. You mentioned in your testimony that it is 
a big gamble to count on his rationality. But I also want to 
think a little bit about what is the political situation that 
he faces.
    We think what might be a limited strike, however that is 
defined, if he does not react, what is his political situation? 
Are there hardliners within that government, that if he does 
not act could very well be decapitating, even though we may not 
think so?
    Could you talk a little bit about what is going on behind 
the scenes, as much as we know, as difficult as that is?
    Ms. Magsamen, I would say one thing on the bloody nose 
approach, the preventive use of force, to sort of take a 
limited strike with the objective of compelling Kim Jong-un to 
the negotiating table, I think there are significant 
weaknesses.
    On the one hand, the rationality behind it, the 
administration has been talking about how Kim Jong-un is 
irrational, but then sort of expecting him to have a rational 
response to that kind of limited strike. I think that is the 
essential flaw in the argument for a bloody nose.
    I do think that deterrence cuts both ways, so I do think 
Kim Jong-un will look to move quickly to reestablish his own 
deterrence vis-a-vis the United States.
    I also think, to your question, that Kim Jong-un's core 
interest is his own personal survival and the survival of his 
family. So I think he is going to act according to that 
interest, regardless of the scenario.
    So I think the potential for escalation is significant in 
the case of a bloody nose, a limited strike.
    I personally do not believe that there is a limited strike. 
I do not believe that would be effective in the objective of 
getting him to the table. It certainly would not be effective 
in taking apart the nuclear, ballistic, and chemical weapons 
programs.
    Senator Peters. Part of it, to be effective, if it is 
effective, is you have to have the belief that this is not a 
full-on attack from the United States that would jeopardize his 
position, as you mentioned.
    But, Admiral Blair, I would like to have you address this a 
little bit, think it through. It is clear, the United States, I 
would think, if we are thinking of a bloody nose attack, that 
we have to be prepared for the horrible repercussions that 
could potentially happen. Therefore, you have to be prepared 
militarily. You have to have the force that, if they do come 
across the line after that bloody nose attack, we can win 
swiftly, as you mentioned in your testimony, and crush them. 
But that would mean the deployment of additional troops before 
the bloody nose.
    As a former logistics officer in the U.S. Navy Reserve, I 
know that you have to move to pre-position supplies there. 
There are a lot of things that could be viewed pretty 
provocatively before you actually get to the bloody nose, as 
you are preparing for what would be a much larger conflict, 
should it occur. It may be difficult to communicate that to the 
North Korean military, that we are not going to go in really 
big, because we have been preparing for that.
    If you could talk a little bit about how we would need to 
have some logistics preparation before this, and that could be 
provocative? Or are there ways that it would not be, if you 
could discuss that, please?
    Admiral Blair. Yes, sir, Senator. That is why I am a strong 
advocate of strong retaliation against their provocations, 
accompanied by all those initial logistics, communications, 
preparatory measures that you mentioned, which you have to do 
in order to get ready for serious conflict on the peninsula.
    In the context of conducting a limited retaliatory strike, 
those sorts of preparations are interpreted and have been in 
the past by North Korea as meaning that the United States is 
serious about responding to general conflict, if they had to, 
and they have generally backed down at that point.
    If you take those same measures in the context of a 
preemptive strike tied not to a particular outrage by Korea or 
without a specific goal that is tied to those goals, then I 
think you run a much higher risk of North Korea calculating 
that this is going to be a big war, so we better get in the 
first shot, and all of the actions that they would take. All 
the advantages they are given by geography, of having Seoul so 
close to the line, come in to play.
    So that is why I really strongly believe that the risks of 
retaliation for North Korean provocation are a great deal less 
than some sort of a preemptive attack that is not tied to a 
specific objective.
    If we could disarm North Korea with a military strike--that 
is, destroy all of their nuclear capability and all of their 
missile capability--I would be a strong advocate of it. But 
with the geography of that country, with the great number of 
tunnels they have been able to get, with the record that the 
United States has had so far of knowing exactly where all of 
the components of these programs are, I think that is a very, 
very high-risk situation. It would require an enormous strike, 
which would be on the order of what you would do in a general 
war. I think there would be quite a high risk that it would not 
get all the components, and you would get the worst of both 
worlds.
    Senator Peters. Thank you.
    Senator Inhofe. Senator Blumenthal?
    Senator Blumenthal. Thank you. Thanks, Mr. Chairman.
    I want to focus on an area that has not yet been covered, I 
think. By the way, I think this panel has been absolutely 
magnificent, very insightful, and, in a way, reassuring, 
because you are more optimistic than I think generally I have 
heard experts be about the potential effectiveness of sanctions 
and diplomacy, which it tends to be downgraded, and is 
especially important in this forum, the Armed Services 
Committee.
    But one of the areas that I think deserves attention is 
cyber. You know better than I that North Korea's cyberattacks 
are a major source of revenue. In fact, the most reliable 
estimate I have heard is about $1 billion per year, which is a 
staggering figure, equivalent to about a third of the country's 
total exports. North Korea's attacks around the world produce 
this stream of revenue.
    One example that has come to light publicly is the Lazarus 
Group, a North Korean-linked cyber ring, stole $81 million from 
a Bangladesh central bank account at the New York Federal 
Reserve, which would have been $1 billion except for a spelling 
error.
    This is totally unclassified. It has been reported 
publicly. But it is just the tip of the iceberg.
    The North Koreans also have been tied to the WannaCry 
attack earlier this year that impacted over 200,000 victims in 
150 countries, as well as the Sony attack in 2014. They were 
linked last month to a $60 million theft from a Taiwanese bank.
    So the world community ought to be unified in responding 
and retaliating, or deterring and punishing, this kind of 
state-sponsored cyberattack on the United States and countries 
and banks around the world.
    So my question to you is, what should be done? There is a 
bipartisan letter that has been joined by many of us, that I 
helped to lead, to U.N. Ambassador Nikki Haley, urging her to 
work with members of the U.N. Security Council to pass a 
resolution more aggressively deterring and punishing these 
kinds of attacks. We sent it on November 1 of last year, and, 
of course, that is just an overture with no real immediate 
practical impact.
    What do you think ought to be done by the State Department 
or by the United States Government, in general?
    That is for all of you. Perhaps, Admiral, you can begin, 
and then we will go down the line. Thank you.
    Admiral Blair. All right, Senator, I will just start 
quickly.
    Yes, I think we should take active cyber measures to 
destroy as much of the capability of the North Korean hacking 
operation that you just described as we can.
    When you get below that general statement into specifics of 
American capability to do so, we would have to go into closed 
session to talk about that, and my knowledge, frankly, is 
somewhat out of date. But I believe that should be a part of 
the punishment of North Korea for the actions that they have 
taken, in addition to the other things that we have talked 
about that can be done with more traditional financial 
sanctions and punishments and corresponding sanctions. So I 
believe that should be a part of it.
    Dr. Green. I would agree. I think it is important for two 
additional reasons.
    First, we need to punish, deter North Korea, for escalating 
the cyber domain, so that they do not escalate in other 
domains, for example, atmospheric tests of nuclear weapons and 
so forth.
    So for our broader deterrence of a North Korea that might 
think it can put us on our back foot in various domains, in 
this domain, we have to be ferocious.
    Secondly, North Korea's cyber activities are one piece of 
the larger network of criminal associations they have with the 
triad, the Green Gang, the Real IRA [Irish Republican Army], a 
whole host of the worst actors in international crime.
    That is not just a law-enforcement issue. That is a problem 
because that is also how they are getting technology for the 
weapons and, in the worst-case scenario, how they might try to 
transfer out of North Korea fissile material or weapons to 
retaliate against us.
    Ms. Magsamen, Senator, I would agree. I would also say that 
the Department of Defense does have cyber dialogues with Korea 
and Japan, and I think it would be useful for DOD to 
potentially consider trilateral options in that space, because 
I do agree with the other panelists that cyber would be an area 
that the North Koreans would look to try to find some sort of 
asymmetric advantage, especially in the middle of conflict. So 
I think that certainly should be added to the trilateral 
cooperation space.
    Senator Blumenthal. Thank you all.
    Thanks, Mr. Chairman.
    Senator Inhofe. Senator King?
    Senator King. Thank you, Mr. Chairman. I apologize for the 
drama associated with my exit. I wish I could blame Kim Jong-un 
for that, but I think it was Elizabeth Warren actually that 
tripped me.
    [Laughter.]
    Senator King. No, it was me.
    I was in this region about a year ago and talked to a lot 
of our national security people both in Japan and in Korea. I 
asked them three questions.
    Number one, is Kim Jong-un rational? The uniform response 
was yes, that he is not crazy and he is capable of rational 
analysis. Therefore, that leads to a possibility of a 
deterrence strategy being successful.
    The second thing I asked was, what does he want? Why is he 
doing this? The answer was regime survival, I think you have 
all testified to that, and his personal survival.
    Where does nuclear capacity fit in? The answer was, this is 
his insurance policy. This is what he is developing as an 
insurance policy.
    So if I am trying to put myself in his shoes, which I think 
is what we all ought to try to do, you look around the world 
and you say, okay, who has denuclearized? Saddam, dead. 
Qaddafi, dead. Ukraine, invaded. What about nuclear agreements 
with the U.S.? Well, there was one in 2015, but now, three 
years later, it appears to be on the verge of being abrogated.
    Ms. Magsamen, if you were in his shoes, wouldn't those be 
part of what you would be considering, in terms of bringing him 
to the table to denuclearize?
    Ms. Magsamen, Certainly, Senator. I think in terms of 
whether or not he is irrational or rational, I think, 
ultimately, nobody really knows for sure. But at the same time, 
he has demonstrated a level of rationality over the years.
    I do think that he is aggressively pursuing the capability 
as a deterrent to the United States attacking him. I think he 
does look around and sees the Qaddafi scenario and Saddam, and 
thinks, ``This is my best insurance policy and deterrent 
against a potential preventive attack by the United States.'' I 
think that is true.
    In terms of how he is looking at us, at the end of the day, 
in addition to North Korea being an arms-control problem, it is 
also a security dilemma, in terms of how he is approaching the 
issue.
    So I think if we are thinking about diplomatic options, for 
example, I do think we have to take into account the fact that 
at the core of this is also a security dilemma for Kim Jong-un.
    Senator King. You go back to the Cuban Missile Crisis, 
which there is no exact analogy, but there are some 
similarities, and one of the pieces of the solution was a 
commitment not to invade Cuba. I do not know about you, but I 
do not have much interest in invading North Korea. Of course, 
we do not have Jupiter missiles to give away, but there may be 
something else.
    But, Admiral Blair, is there an outline of a deal here? Or 
do you think that, under any circumstances, he is not going to 
give up these weapons?
    Admiral Blair. I think that he has, right now, worked out a 
strategy, an approach, it is not a strategy, of this nuclear 
missile development within his own country, which, as I said 
earlier, is not as provocative in terms of public outrage in 
the Republic of Korea and the United States as the old sorts of 
provocations of sinking ships, special forces assassinations, 
and so on. It builds a nuclear capability, which he can use for 
two purposes. One, he can, as predecessors have done, use 
pieces of it to get concessions in other areas, political and 
economic. Two, ultimately, as you pointed out, it can be his 
ace in the hole.
    I am not sure whether he is a Herman Kahn-trained 
economist. I think he is more of a bully, who thinks, ``This is 
the biggest goddamn knife I can have, a nuclear weapon. I am 
going to have one. That is good for me, because I am 
surrounded.''
    So I think we can sort of overthink it in that way. But 
yes, he wants to have a nuclear weapon because he feels that 
will help him deal with his enemies.
    Senator King. Let me turn the discussion a bit, because 
this has been a very important hearing, because until today, 
the only discussion has been, in effect, bomb or don't bomb. I 
mean, it has been very straightforward about military force. 
Yes, we are going to talk about diplomacy. Now we are talking 
about containment and deterrence.
    The flaw in deterrence, it seems to me, in this particular 
situation, is the proliferation danger, and can we develop 
deterrence 2.0 in this situation that would deal with 
proliferation? Because if these weapons fell into the hands of 
ISIS [Islamic State of Iraq and Syria] or someone who you 
couldn't deter because they are not a state actor, that would 
raise the level of threat exponentially.
    Dr. Green. I think that is exactly right, Senator. The 
deterrence 2.0, or whatever we call it, is more than the 
deterrence we saw with the Soviet Union, because the regime 
does not want these weapons to be left alone. That is part of 
it. They want these weapons to coerce us, the South Koreans, 
the Japanese, to get concessions and to----
    Senator King. Part of the coercion could be threatening 
proliferation.
    Dr. Green. I am convinced part of it will be. I was in 
negotiations with the North Koreans in Beijing in 2003 when, on 
instructions from Pyongyang, their delegate said to us, ``If 
you do not end your hostile policy''--and by that, they meant 
sanctions, our nuclear umbrella over Japan and Korea, our 
forward bases. ``If you do not end it, we will transfer our 
'deterrent' to a third country.'' That was 2003. In 2007, we 
caught them, the Israelis caught them, helping to build a 
nuclear power plant in Syria and bombed it.
    I am absolutely convinced that North Korea will seek to 
gain coercive leverage through cyber, through the threat of 
transfer. They will stay below the red line. They know 
transferring fissile material could be the death of the regime. 
They will push it.
    That is why we have to have a very active deterrence 2.0, 
as you put it, where we are interdicting, where we are putting 
pressure on potential recipients of technology, where we are 
interdicting at sea, and where we are retaliating quickly and 
promptly whether it is in cyberspace or other domains to impose 
a cost and to make it much more difficult for them to 
proliferate in or out.
    That is where we are heading. It is not easy. It is going 
to take resources. It is where, in my view, the administration 
should be focusing our discussion with allies.
    I hope we get to that point and beyond, as you said, this 
sort of binary debate, diplomacy or war, which is not really 
getting us traction on the problem.
    Senator King. I am out of time, but you have mentioned one 
of the problems we have, and we have talked about this numerous 
times in this committee, we do not have a deterrence strategy 
with regard to cyber. We do not even have a definition of what 
a cyberattack is, what an act of war is, what should be 
responded to in what proportion.
    For that reason, we are a cheap date in cyber. There are no 
results from coming after us, as we have learned in the last 
several weeks. This is sort of a big parenthetical, but that is 
another area of U.S. foreign policy strategic strategy that we 
really have to get after.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator King.
    First of all, when we have hearings like this, we always 
have experts, and experts, quite frankly, know more than we do. 
It is healthy now and then to disagree, which we had some 
disagreement.
    I appreciate your straightforward responses and the time 
that you have given to this committee. Because of our competing 
committees this morning, we are not going to have a second 
round.
    We are adjourned.
    [Whereupon, at 12:03 p.m., the committee adjourned.]

                                 [all]
</pre></body></html>
